September 2007
Report No. AUD-07-014


Independent Evaluation of the FDIC’s
Information Security Program-2007




            AUDIT REPORT
                                                                                                 Report No. AUD-07-014
                                                                                                        September 2007


                                    Independent Evaluation of the FDIC’s Information
                                    Security Program-2007
                                    Results of Evaluation
Background and Purpose
of Evaluation                       The FDIC has made significant progress in recent years in addressing the
                                    information security provisions of FISMA and the National Institute of Standards
The FDIC Office of Inspector        and Technology. This progress is noteworthy given the considerable increase in
General (OIG) contracted with       information-security-related requirements levied on federal agencies. KPMG
KPMG, LLP (KPMG) to                 found that the FDIC established policies and procedures in substantially all of the
conduct an independent              security control areas evaluated. In addition, KPMG noted particular strength in
evaluation of the FDIC’s            the areas of Information Security Governance, Incident Response, and Awareness
information security program        and Training and that additional improvements were underway at the close of the
and practices pursuant to the       evaluation.
Federal Information Security
Management Act of 2002              These accomplishments are notable. However, as reflected in the table below,
(FISMA). FISMA requires             KPMG identified a number of information security control deficiencies
federal agencies, including the     warranting management attention. Addressing these security control deficiencies
FDIC, to have an annual             will contribute to the FDIC’s ongoing efforts to achieve reasonable assurance of
independent evaluation              adequate security over corporate information resources. KPMG’s report
performed of their information      identifies steps that the Corporation can take to strengthen security controls in the
security program and practices      priority areas of Access Control; Identification and Authentication; Certification,
and to report the results of the    Accreditation, and Security Assessments; Risk Assessment; Personnel Security;
evaluation to the Office of         and Audit and Accountability. In many cases, the FDIC was already working to
Management and Budget.              improve security controls in these areas during KPMG’s evaluation. The FDIC
                                    OIG will follow up on the security control deficiencies identified in this report as
Key to achieving the FDIC’s         part of future FISMA evaluations.
mission of maintaining stability
and public confidence in the        KPMG’s Assessment of the FDIC’s Security Program Controls
nation’s financial system is
safeguarding the sensitive                                Control Families Tested        Control Families Tested That
                                        Control
information it collects and                                That Demonstrated               Warrant Management
                                         Class
manages in its role as federal                                 Effectiveness                      Attention
deposit insurer of banks and                          • Information Security            • Enterprise Architecture
savings associations. Ensuring       Program
                                                        Governance
the integrity, availability, and
confidentiality of this                               • Planning                        • Risk Assessment
information in an environment        Management                                         • Certification, Accreditation,
of increasingly sophisticated                                                             and Security Assessments
security threats requires a
                                                      •   Contingency Planning     • Physical and Environmental
strong, enterprise-wide                               •   Configuration Management   Protection
information security program.                         •   Maintenance              • Personnel Security
                                     Operational
                                                      •   Incident Response        • System and Information
The objective of the evaluation                       •   Awareness and Training     Integrity
was to determine the                                                               • Media Protection
effectiveness of the FDIC’s
information security program                                                            • Identification and
and practices, including the                                                              Authentication
                                     Technical
FDIC’s compliance with the                                                              • Access Control
FISMA and related information                                                           • Audit and Accountability
security policies, procedures,      Source: KPMG’s 2007 Evaluation of the FDIC’s Information Security Program.
standards, and guidelines.
To view the full report, go to
www.fdicig.gov/2007reports.aspUTH
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                           Office of Inspector General



DATE:                                     September 27, 2007

MEMORANDUM TO:                            Sheila C. Bair, Chairman
                                          Federal Deposit Insurance Corporation

                                          /Signed/
FROM:                                     Jon T. Rymer
                                          Inspector General

SUBJECT:                                  Independent Evaluation of the FDIC’s
                                          Information Security Program—2007
                                          (Report No. AUD-07-014)


Attached is a copy of the subject report prepared by KPMG, LLP (KPMG) under contract with
the Office of Inspector General (OIG). Please refer to the Executive Summary for the overall
results.

The OIG provided you, the Chief Operating Officer, and Chief Financial Officer with a draft
copy of this report on September 14, 2007. Because the report contains no recommendations, no
written response was required from the Corporation. However, KPMG did consider and address,
as appropriate, informal comments provided by FDIC officials. In response to a request from the
Office of Management and Budget (OMB), the OIG reported separately on the status of the
FDIC’s privacy program in its report entitled, Response to Privacy Program Information Request
in OMB’s Fiscal Year 2007 Reporting Instructions for FISMA and Agency Privacy Management
(Report No. AUD-07-013, dated September 26, 2007).

The OIG’s independent security evaluation and privacy program reports, together with the FDIC
Chief Information Officer’s report required by the Federal Information Security Management
Act of 2002, are due to the OMB by October 1, 2007.

The 2007 FISMA report will be made publicly available. If you have any questions concerning
this report, please contact me at (703) 562-2166 or Russell A. Rau, Assistant Inspector General
for Audits, at (703) 562-6350. We appreciate the courtesies extended to the audit staff and
KPMG during this assignment.

Attachment
Independent Evaluation of the FDIC’s
Information Security Program-2007


Prepared for the
Federal Deposit Insurance Corporation
Office of Inspector General
September 26, 2007




KPMG LLP
2001 M Street, NW
Washington, DC 20036
                                                            Table of Contents

EXECUTIVE SUMMARY .......................................................................................................................... 1
BACKGROUND .......................................................................................................................................... 4
  NIST Security Standards and Guidelines.................................................................................................. 5
  FDIC Systems and Applications ............................................................................................................... 6
  FDIC Security Governance....................................................................................................................... 7
  Information Security Program Initiatives ................................................................................................. 8
RESULTS OF EVALUATION .................................................................................................................... 9
PROGRAM CONTROLS........................................................................................................................... 11
  Information Security Governance........................................................................................................... 11
  Enterprise Architecture (EA) .................................................................................................................. 12
MANAGEMENT CONTROLS.................................................................................................................. 14
  Risk Assessment (RA) ............................................................................................................................ 14
  Planning (PL) .......................................................................................................................................... 15
  System and Services Acquisition (SA) ................................................................................................... 16
  Certification, Accreditation, and Security Assessments (CA) ................................................................ 17
OPERATIONAL CONTROLS .................................................................................................................. 19
  Physical and Environmental Protection (PE).......................................................................................... 19
  Personnel Security (PS) .......................................................................................................................... 21
  Contingency Planning (CP) .................................................................................................................... 23
  Configuration Management (CM) .......................................................................................................... 24
  Maintenance (MA).................................................................................................................................. 25
  System and Information Integrity (SI) .................................................................................................... 26
  Media Protection (MP) ........................................................................................................................... 27
  Incident Response (IR) ........................................................................................................................... 28
  Awareness and Training (AT)................................................................................................................. 29
TECHNICAL CONTROLS........................................................................................................................ 30
  Identification and Authentication (IA).................................................................................................... 30
  Access Control (AC)............................................................................................................................... 32
  Audit and Accountability (AU)............................................................................................................... 34
  System and Communications Protection (SC)........................................................................................ 35

APPENDICIES
APPENDIX I – OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 36
APPENDIX II – STATUS OF OIG’S FY2006 FISMA KEY STEPS ....................................................... 44
APPENDIX III – SUMMARY OF CONTROLS TESTED ....................................................................... 45
APPENDIX IV – OMB SECURITY QUESTIONS................................................................................... 51
APPENDIX V – GLOSSARY OF TERMS ............................................................................................... 58

TABLES
Table 1: The FDIC's General Support Systems and Major Applications .................................................... 6
Table 2: KPMG Assessment of the FDIC’s Security Controls.................................................................. 10
Table 3: Risk Assessment .......................................................................................................................... 14
Table 4: Planning ....................................................................................................................................... 15
Table 5: Certification, Accreditation, and Security Assessments .............................................................. 17
Table 6: Physical and Environmental Protection ....................................................................................... 19
Table 7: Personnel Security ....................................................................................................................... 21
Table 8: FDIC Employee Risk Level Designations................................................................................... 22
Table 9: Contingency Planning.................................................................................................................. 23
                                                          Table of Contents
Table 10:     Configuration Management ....................................................................................................... 24
Table 11:     Maintenance............................................................................................................................... 25
Table 12:     System and Information Integrity .............................................................................................. 26
Table 13:     Media Protection........................................................................................................................ 27
Table 14:     Incident Response ...................................................................................................................... 28
Table 15:     Awareness and Training ............................................................................................................ 29
Table 16:     Identification and Authentication .............................................................................................. 30
Table 17:     Access Control........................................................................................................................... 32
Table 18:     Audit and Accountability........................................................................................................... 34
Table 19:     Security Control Classes and Families ...................................................................................... 38

FIGURES
Figure 1: Managing Enterprise Risk (The Framework)............................................................................... 5
Figure 2: The FDIC’s Information Security Governance ............................................................................ 7
Figure 3: EA Repository Challenges ......................................................................................................... 12
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




EXECUTIVE SUMMARY

September 26, 2007

Honorable Jon T. Rymer
Inspector General
Federal Deposit Insurance Corporation
3501 Fairfax Drive
Arlington, VA 22226-3500

Dear Mr. Rymer:

This report presents the results of our independent evaluation of the FDIC’s information security program
and practices. The FDIC Office of Inspector General (OIG) contracted with KPMG to conduct a
performance audit of the FDIC’s information security program and practices pursuant to the Federal
Information Security Management Act of 2002 (FISMA). We conducted our performance audit in
accordance with Generally Accepted Government Auditing Standards issued by the Comptroller General
of the United States. FISMA requires federal agencies, including the FDIC, to have an annual
independent evaluation performed of their information security program and practices and to report the
results of the evaluation to the Office of Management and Budget (OMB). FISMA requires that the
independent evaluation be performed by the agency Inspector General (IG) or an independent external
auditor as determined by the IG.

The objective of KPMG’s evaluation was to determine the effectiveness of the FDIC’s information
security program and practices, including the FDIC’s compliance with FISMA and related information
security policies, procedures, standards, and guidelines. As part of its work, KPMG prepared responses
to a series of security-related questions directed to agency IGs in OMB Memorandum M-07-19, FY 2007
Reporting Instructions for the Federal Information Security Management Act and Agency Privacy
Management. The responses to OMB’s questions are included in Appendix IV of this report. In addition,
KPMG briefed the FDIC’s Chief Information Officer and Director, Division of Administration, on the
preliminary results of the evaluation on September 6, 2007. The purpose of the briefing was to provide
these management officials with detailed information to facilitate the FDIC’s ongoing efforts to
strengthen its information security program controls. We consider the information provided during the
briefing to be sensitive. Accordingly, that information is not included in this publicly available report.

As our report details, the FDIC continues to make significant progress in improving its information
security program and practices and in addressing current and emerging information security standards and
guidelines developed by the National Institute of Standards and Technology (NIST). However, KPMG
identified a number of information security control deficiencies warranting management attention.
Addressing these security control deficiencies will contribute to the FDIC’s ongoing efforts to achieve
reasonable assurance of adequate security over Corporate information resources. Listed on page 2, in
priority order, are six steps that the Corporation can take to improve the effectiveness of its information
security program controls. In many cases, the FDIC was already working to address these steps during
KPMG’s evaluation.



                                                                                                    Page 1

                                   KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                   a member of KPMG International, a Swiss cooperative.
(1) Strengthen Access Control by (a) continuing to place priority attention on ongoing efforts to restrict
    user access to sensitive information stored on the Corporation’s network shared drives, (b) disabling
    or deleting separated employees’ user account access to applications in a timely manner, and
    (c) improving the separation of duties among the Windows network administrators.

(2) Strengthen Identification and Authentication controls by ensuring that passwords used to control
    access to critical information security resources, such as network servers, databases, and applications
    comply with FDIC policy.

(3) Enhance the effectiveness of the FDIC’s information security vulnerability scanning processes by
    ensuring that all information technology (IT) equipment connected to the FDIC’s network are
    routinely scanned with the appropriate user identification (ID) and password to identify missing
    security patches and security configuration errors.

(4) Strengthen Personnel Security controls by (a) assigning a high or moderate risk level designation to
    contractor employees with broad physical access permissions to FDIC headquarters facilities and
    confirming that the U.S. Office of Personnel Management (OPM) has sufficient contractor employee
    information to start the appropriate background investigation process before granting broad physical
    access, and (b) developing a process to assist in identifying employees and contractors with
    background investigations that are not commensurate with individual risk level designations.

(5) Strengthen Audit and Accountability controls by continuing to place priority attention on developing a
    risk-based enterprise-wide approach for (a) monitoring user access privileges in information systems
    and (b) generating and reviewing audit logs for the FDIC’s inventory of information systems.

(6) Enhance the FDIC’s ongoing security control assessments in each of the five areas listed above to
    provide greater assurance that such controls are operating effectively.

This performance audit did not constitute an audit of financial statements in accordance with Generally
Accepted Government Auditing Standards. KPMG was not engaged to, and did not, render an opinion on
the FDIC’s internal controls over financial reporting or over financial management systems. KPMG
cautions that projecting our evaluation to future periods is subject to the risks that controls may become
inadequate because of changes in conditions or because compliance with controls may deteriorate.
Appendix I of this report provides detailed information regarding the evaluation’s objective, scope, and
methodology, as well as additional information about information-security-related laws, regulations, and
other guidance. Appendix II provides a status of prior year FISMA key steps to improve information
security, and Appendix III includes a summary of the controls tested as part of the 2007 FISMA
evaluation. Appendix IV is the response to OMB Security Questions, and Appendix V provides a
glossary of terms.

Sincerely,




                                                                                                     Page 2
                                                     List of Acronyms


Acronym                      Definition                         Acronym                    Definition
ASA         Application Security Assessment                     IDS        Intrusion Detection System
BCP         Business Continuity Plan                            IG         Inspector General
BIA         Business Impact Analysis                            IRIS       Internal Risks Information System
C&A         Certification and Accreditation                     ISM        Information Security Manager
CD/DVD      Compact Disc/Digital Video Disc                     ISPS       Information Security and Privacy Staff
CFO         Chief Financial Officer                             IT         Information Technology
CHRIS       Corporate Human Resources Information               KPMG       KPMG LLP
            System
                                                                NIST       National Institute of Standards and
CIO         Chief Information Officer                                      Technology
CMMI        Capability Maturity Model Integration               OIG        Office of Inspector General
        ®
COBIT       Control Objectives for Information and              OMB        Office of Management and Budget
            related Technology
                                                                OPM        Office of Personnel Management
COO         Chief Operating Officer
                                                                PIA        Privacy Impact Assessment
CSIRT       Computer Security Incident Response
            Team                                                PII        Personally Identifiable Information
DIT         Division of Information Technology                  PIV        Personal Identity Verification
DOA         Division of Administration                          POA&M      Plan of Action & Milestones
EA          Enterprise Architecture                             PUB        Publication
FDIC        Federal Deposit Insurance Corporation               RCN        Remote Client Network
FIPS        Federal Information Processing Standards            RUP
                                                                       ®
                                                                           Rational Unified Process
FISMA       Federal Information Security Management             SDLC       System Development Life Cycle
            Act
FMFIA       Federal Managers’ Financial Integrity Act           SP         Special Publication

FY          Fiscal Year                                         SQL        Structured Query Language

GAO         Government Accountability Office                    SSPs       System Security Plans

GSS         General Support System                              ST&E       Security Test & Evaluation

HSPD        Homeland Security Presidential Directive            USB        Universal Serial Bus

ID          Identification                                      U.S.C.     United States Code




                                                                                                                 Page 3
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007


BACKGROUND

Key to achieving the FDIC’s mission of maintaining stability and public confidence in the nation’s
financial system is safeguarding the sensitive information (including personally identifiable information
(PII)) that the FDIC collects and manages in its role as federal deposit insurer of banks and savings
associations. In addition, as an employer and acquirer of services, the FDIC obtains sensitive information
from its employees and contractors. Implementing proper controls over this information is critical to
mitigating the risk of an unauthorized disclosure that could lead to identity theft, consumer fraud, and
potential legal liability or public embarrassment for the Corporation. Widely publicized reports of
network compromises and data security breaches at federal agencies have raised concern among federal
agencies, the public, and the Congress and underscore the importance of implementing strong, enterprise-
wide information security controls. In addition, the U.S. Government Accountability Office (GAO) has
designated information security as a government-wide, high-risk issue in its reports to the Congress since
1997.

In response to concerns about the security of federal information systems, the Congress enacted Title III
of the E-Government Act of 2002, commonly referred to as FISMA. FISMA focuses on improving the
oversight of federal information security programs and facilitating progress in correcting agency
information security deficiencies. FISMA requires federal agencies, including the FDIC, to develop,
document, and implement an agency-wide information security program that provides security for the
information and information systems that support the operations and assets of the agency, including those
provided or managed by another agency, contractor, or other source.1 Under FISMA, agency heads are
responsible for providing information security protections commensurate with the risk and magnitude of
harm resulting from the unauthorized access, use, disclosure, disruption, modification, or destruction of
information and information systems. Agency heads are also responsible for complying with the
requirements of FISMA and related policies, procedures, standards, and guidelines. FISMA directs
agency heads to report annually to the OMB Director, Comptroller General, and selected congressional
committees on the adequacy and effectiveness of agency information security policies, procedures, and
practices and compliance with FISMA. In addition, FISMA requires agencies to have an annual
independent evaluation performed of their information security programs and practices and to report the
evaluation results to OMB. FISMA states that the independent evaluation is to be performed by the
agency IG or an independent external auditor as determined by the IG.

OMB is responsible for annually reporting to the Congress on agency compliance with FISMA’s
requirements. OMB relies on the annual agency FISMA reports to evaluate agency-specific and
government-wide security performance. OMB provided federal agencies with instructions for satisfying
their reporting requirements under FISMA in a July 25, 2007 memorandum, FY 2007 Reporting
Instructions for the Federal Information Security Management Act and Agency Privacy Management.
OMB’s primary agency security policy is OMB Circular No. A-130, Management of Federal Information
Resources, Appendix III, Security of Federal Automated Information Resources (OMB A-130, Appendix
III), dated November 28, 2000.2




1
    The FDIC has determined that aspects of FISMA are legally binding on the Corporation.
2
    Various provisions of OMB A-130, Appendix III are legally binding on the FDIC.

                                                                                                   Page 4
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

NIST Security Standards and Guidelines

FISMA directs NIST to develop risk-based standards and guidelines to assist agencies in defining
minimum security requirements for the non-national security systems used by agencies.3 NIST has
developed such standards and guidelines as part of its FISMA Implementation Project and is developing
additional standards and guidelines. KPMG based its security evaluation primarily on the security
controls defined in NIST Federal Information Processing Standards (FIPS) Publication (PUB) 200,
Minimum Security Requirements for Federal Information and Information Systems, and Special
Publication (SP) 800-53 Revision (Rev.) 1, Recommended Security Controls for Federal Information
Systems.4 These NIST publications define a framework for protecting the confidentiality, integrity, and
availability of federal information and information systems consisting of three general classes of security
controls, namely, management, operational, and technical. Collectively, these three security control
classes contain 17 control families. Each control family contains security controls related to the security
functionality of the family. KPMG included one additional security control class (i.e., program) in its
assessment methodology based on a review of NIST SP 800-100, Information Security Handbook: A
Guide for Managers, and research of relevant security-related statutes, regulations, policies, and
guidelines.
                               Figure 1: Managing Enterprise Risk (The Framework)
Federal security control
requirements and
assessment methodologies
have changed
dramatically in recent
years in response to new
NIST security standards
and guidelines. Figure 1
illustrates the relationship
of key NIST security
standards and guidelines.
Appendix I of this report
provides additional
information about FIPS
PUBs and SPs, including
their legal effect on the
FDIC.

                               Source: NIST SP 800-53 Rev. 1.




3
  FISMA authorizes the Secretary of Commerce to make NIST standards compulsory for executive agencies to the
  extent determined necessary to improve the efficiency and security of federal information systems. The Secretary
  of Commerce exercises this authority subject to the direction of the President and in coordination with the OMB
  Director. Because the Secretary of Commerce does not have jurisdiction over the FDIC in this subject area, the
  standards published by the Secretary are not legally binding on the FDIC, but the FDIC’s policy is to voluntarily
  comply with those standards.
4
  Federal agencies must meet the minimum security requirements defined in NIST FIPS PUB 200 through the use of
  the suggested controls in NIST SP 800-53 Rev. 1. The FDIC has determined that the minimum standards
  contained in FIPS PUB 200 reflect reasonable business practices that the FDIC should seek to follow.

                                                                                                           Page 5
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

FDIC Systems and Applications
                                                  Table 1: The FDIC's General Support Systems and Major
The FDIC relies extensively on
                                        Applications
information systems to support its
                                                              Mainframe
business operations. The FDIC’s
Division of Information Technology                            Voice/Video

(DIT) maintains seven general                 General         Mid-range (UNIX) Servers
                         6                                    Data Communications Infrastructure
support systems (GSS) that provide            Support
basic processing and communications           Systems         Windows Servers*
support for the 319 business                                  Public Key Infrastructure
application systems7 in the                                   Personal Systems
Corporation’s application inventory.                          Assessment Information Management System II
The FDIC’s business applications
                                                              Asset Servicing Technology Enhancement Program
collect, process, store, and distribute
                                                              Corporate Human Resource Information System
mission-critical information, such as
                                                              FDICconnect
personnel and bank data, in support            Major
                                                              Legal Integrated Management System
of the Corporation’s three primary         Applications
program areas (Insurance,                                     New Financial Environment

Supervision and Consumer                                      Receivership Liability System
Protection, and Receivership                                  Risk-Related Premium System
Management). The FDIC has                                     Virtual Supervisory Information on the Net
                                        Source: DIT’s Information Security and Privacy Staff.5
classified nine of the business         * During the fiscal year 2007 FISMA evaluation, the FDIC re-defined the boundaries of
application systems as major              the Windows Servers GSS to include Windows servers previously included in the
              8                           Remote Access GSS.
applications. Table 1 identifies the
FDIC’s GSSs and major applications.
The FDIC has aggregated its minor applications into the GSSs and major applications.




6
  OMB A-130, Appendix III defines a GSS as an interconnected set of information resources under the same direct
  management and that shares common functionality. A system normally includes hardware, software, information,
  applications, communications, and people.
7
  According to the Enterprise Architecture (EA) Repository system inventory of applications systems on July 31,
  2007, the FDIC owned 305 application systems and outsourced 14 application systems. Using the July 31, 2007
  EA Repository report, DIT Information Security and Privacy Staff (ISPS) identified 152 of the 319 EA Repository
  application systems inventory and seven GSSs as its risk management inventory subject to FISMA and NIST
  security requirements. According to the ISPS, the remaining 167 application systems in the EA Repository
  inventory were no longer in service, or were tools, utilities, or other objects that were not application systems and,
  therefore, were not included in the ISPS’s risk management inventory.
8
  OMB A-130, Appendix III defines a major application as one that requires special attention to security due to the
  risk and magnitude of harm resulting from the loss, misuse, unauthorized access to, or modification of, the
  information in the application.

                                                                                                                         Page 6
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

FDIC Security Governance

Several key components               Figure 2: The FDIC’s Information Security Governance
comprise the FDIC’s
                                                                         Chairman and Board
information security                                                         of Directors
governance structure. As
illustrated in Figure 2,                        Inspector General                                        Chief Information
these components include                                                                                      Officer
the FDIC Chairman and
Board of Directors; Chief
Information Officer (CIO);                  Chief Financial                 Chief Operating                  General Counsel
Chief Operating Officer                         Officer                         Officer

(COO); Chief Financial
Officer (CFO); and the                    Director, Division      Director, Division of Supervision &          Legal Division
Directors of DIT, the                        of Finance                  Consumer Protection
                                                                   Director, Division of Information
Division of Administration                                                    Technology
(DOA), and other divisions                                         Director, Division of Insurance &
                                                                               Research
and offices that own                                              Director, Division of Resolutions &
information systems.                                                         Receiverships
                                                                  Director, Division of Administration
The Chairman and Board
                                Source: OIG Audit Report No. 06-022, Independent Evaluation of the FDIC’s Information Security Program—
of Directors are ultimately 2006, dated September 2006.
responsible for the security
of the FDIC’s information and information systems. The CFO and CIO co-chair a Capital Investment
Review Committee, which authorizes and monitors capital projects, including IT projects. The CIO has
overall responsibility for the FDIC’s IT program, including information security. The CIO also serves as
the FDIC’s Chief Privacy Officer, Senior Agency Official for Privacy,9 and Director of DIT. In addition,
a CIO Council composed of senior agency managers advises the CIO on all aspects of IT, including
security. The COO manages the FDIC’s operating divisions, including DIT and DOA. DIT is
responsible for providing a secure IT infrastructure and systems. DOA is responsible for providing
physical and personnel security for the FDIC. Other division and office heads are responsible for
ensuring that systems under their ownership or control conform to the FDIC’s security requirements. The
OIG performs or contracts for audits and evaluations of the FDIC’s information security controls,
including the annual independent evaluation of the Corporation’s security program required by FISMA.

The CIO has assigned primary responsibility for planning, developing, and implementing the FDIC’s
information security program and operations to an Associate Director in DIT who reports directly to the
CIO. In addition, the FDIC has established eight Information Security Managers (ISM) within its
program divisions and offices to ensure a business focus on information security. The responsibilities of
ISMs include promoting security awareness, providing security management and technical advice on
behalf of their divisions and offices, and assessing the level of security needed and in place in corporate
applications. DIT’s budget for calendar year 2007 is approximately $191 million, of which the FDIC
estimated approximately $18 million is allocated to information security.

9
    The position of Senior Agency Official for Privacy arose from OMB Memorandum M-05-08, Designation of
    Senior Agency Officials for Privacy, whereas the Chief Privacy Officer resulted from section 522 of the
    Transportation, Treasury, Independent Agencies, and General Government Appropriations Act, which is
    Division H of the Consolidated Appropriations Act, 2005. The FDIC determined that the Corporation would
    comply with these provisions.

                                                                                                                                Page 7
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007


DOA’s Security and Emergency Preparedness Section is responsible for administering the FDIC's
physical and personnel security programs. Physical security includes activities such as badging
employees, contractors, and visitors and protecting employees, visitors, and facilities from internal and
external threats such as fire, theft, vandalism, sabotage, and terrorist activities. Personnel security
includes activities such as performing credit checks, fingerprint checks, and background investigations of
FDIC employees and contractors. The Security and Emergency Preparedness Section is also responsible
for managing, directing, and testing the FDIC’s Emergency Preparedness Program, which includes the
FDIC’s Emergency Response Plan and the Business Continuity Plan (BCP). Both plans have IT-related
components. DIT and DOA coordinate on relevant corporate security matters.


Information Security Program Initiatives

The FDIC is working to implement a number of important initiatives to strengthen its information
security program controls and operations. Of particular note, DIT is in the process of deploying software
that automatically encrypts data stored on corporate laptop computers without manual intervention by
users. The FDIC’s current laptop encryption software requires manual intervention by users, limiting
management’s assurance that sensitive information is consistently encrypted. Additionally, DIT plans to
implement a standardized encryption solution for sensitive data stored on removable media, such as
Universal Serial Bus (USB) thumb drives and CDs/DVDs. In the fall of 2006, the FDIC undertook a
multi-year, strategic initiative to conduct a comprehensive assessment (including usage level, continued
need, data content, access rights, and access control monitoring procedures) of its network shared drives.
The FDIC recognizes that its network shared drives contain significant amounts of sensitive information
that may be at risk of unauthorized disclosure. In addition, DIT initiated the Identity Access Management
project to develop a more efficient and effective process for controlling access to its corporate systems
and data resources. Further, DIT is adopting the principles of the Control Objectives for Information and
related Technology (COBIT®)10 in its internal control program.




10
     COBIT® is an international IT controls governance framework.

                                                                                                   Page 8
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007


RESULTS OF EVALUATION

The FDIC has made significant progress in recent years in addressing the information security provisions
of FISMA and NIST. This progress is noteworthy given the considerable increase in information-
security-related requirements levied on federal agencies. KPMG found that the FDIC established policies
and procedures in substantially all of the security control areas evaluated. In addition, KPMG noted
particular program strength in the areas of Information Security Governance, Incident Response, and
Awareness and Training. KPMG also noted that a recent test of the FDIC’s IT disaster recovery
capability was successful in achieving its primary objective of recovering mission-critical applications
and GSSs within pre-determined timeframes. Further, the FDIC enhanced its configuration management
controls by integrating information security into its Rational Unified Process (RUP®) systems
development life cycle (SDLC) methodology and applying RUP® to IT infrastructure projects.

These accomplishments are notable. However, KPMG identified a number of information security
control deficiencies warranting management attention. Addressing these security control deficiencies will
contribute to the FDIC’s ongoing efforts to achieve reasonable assurance of adequate security over
corporate information resources. If not addressed in a timely manner, these security control deficiencies
could affect the results of future evaluations of the FDIC’s information security program. KPMG’s report
identifies steps that the Corporation can take to strengthen security controls in Access Control;
Identification and Authentication; Risk Assessments; Personnel Security; Audit and Accountability; and
Certification, Accreditation, and Security Assessments. In many cases, the FDIC was already working to
improve security controls in these areas during KPMG’s evaluation.

Table 2, on the following page, summarizes KPMG’s security program assessment results. The table
structures KPMG’s results according to the security control framework defined in FIPS PUB 200 and
SP 800-53 Rev. 1. The table includes one additional control class (i.e., program) based on the results of
KPMG’s research of relevant security-related statutes, regulations, policies, and guidelines.11 The
detailed results of KPMG’s program assessment are presented after Table 2.




11
     Consistent with the FISMA provision that the annual evaluation can be based on a subset of agency systems,
     KPMG did not assess the System and Communications Protection or Systems and Services Acquisition control
     families defined in FIPS PUB 200 and SP 800-53 Rev. 1. Further, KPMG did not assess the Capital Planning
     control family under the Program Controls class. Appendix II describes the security control testing KPMG
     performed within each security control class and family.

                                                                                                           Page 9
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007


Table 2: KPMG Assessment of the FDIC’s Security Controls
     Control             Control Families Tested That                       Control Families Tested That
      Class              Demonstrated Effectiveness                        Warrant Management Attention

                         • Information Security                            • Enterprise Architecture
 Program
                           Governance

                         • Planning                                        • Risk Assessment
 Management                                                                • Certification, Accreditation, and
                                                                             Security Assessments

                         •   Contingency Planning                          • Physical and Environmental
                         •   Configuration Management                        Protection
                         •   Maintenance                                   • Personnel Security
 Operational
                         •   Incident Response                             • System and Information Integrity
                         •   Awareness and Training                        • Media Protection


                         None                                              • Identification and Authentication
 Technical                                                                 • Access Control
                                                                           • Audit and Accountability
Source: 2007 KPMG Evaluation of the FDIC’s Information Security Program.




                                                                                                                 Page 10
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007


PROGRAM CONTROLS

Program controls define an enterprise-wide framework for planning, directing, and controlling resources
to achieve agency security objectives. Based on our analysis of NIST SP 800-100 and relevant security-
related statutes, regulations, policies, standards, and guidelines, program controls include three families
for consideration: Information Security Governance, Capital Planning, and Enterprise Architecture. As
part of the 2006 FISMA evaluation, the OIG performed extensive testing in these three areas. For 2007,
KPMG’s evaluation of program controls was limited to Information Security Governance and the system
inventory component of Enterprise Architecture. KPMG did not evaluate security controls related to
Capital Planning. In summary, KPMG found the security controls tested related to Information Security
Governance were effective, while controls tested for Enterprise Architecture warranted management
attention.

Information Security Governance
Rating: Demonstrated Effectiveness

Information security governance involves the implementation of an enterprise-wide control structure that
provides management with reasonable assurance that security controls are implemented as designed and
operating effectively. Governance consists of (a) enterprise-wide security program policies and
procedures that define key roles and responsibilities and (b) monitoring to assess whether security
controls are achieving intended results. FISMA defines specific responsibilities and authorities for
agency heads,12 senior agency officials, and CIOs. Among those responsibilities are requirements for the
CIO to develop and maintain an information security program and to report annually to the agency head
on the effectiveness of the program and progress of remedial actions.

The FDIC has appointed a permanent CIO with corporate accountability and authority for information
security, a senior agency information security officer who reports directly to the CIO, and a CIO Council
composed of senior agency managers who advise the CIO on all aspects of IT. The FDIC has established
a number of policies, procedures, and guidelines that generally define the security roles and
responsibilities of corporate officials and contractor personnel. In addition, DIT published an Information
Security Strategic Plan, and the CIO made periodic presentations to senior agency officials on corporate
information security matters. Further, DIT is embracing the principles of COBIT® in its internal control
program.

DIT has established a performance measurement program with a current policy, reporting requirements,
and a balanced scorecard.13 Overall, the performance measurement program is maturing, as evidenced by
the addition of new performance metrics and retirement of less useful metrics. Currently, there are new
metrics under development to better align DIT activities with the Corporation’s strategic initiatives. In
2008, DIT plans to include significant updates to its performance metrics. DIT could enhance the utility

12
   For the purposes of our evaluation, we consider the FDIC’s Chairman to be the head of the Corporation.
   Nevertheless, the FDIC’s Board of Directors, by statute, has overall responsibility for managing the Corporation.
   The Board consists of five members: the Chairman, the Vice Chairman, an appointed Director, the Director of the
   Office of Thrift Supervision, and the Comptroller of the Currency.
13
   The balanced scorecard is a management tool designed to help organizations translate strategy into operational
   objectives that drive both behavior and performance. The scorecard was designed to improve current
   performance measurement systems by providing alternatives to managing organizational performance other than
   exclusively through financial measures.

                                                                                                            Page 11
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

of the quarterly performance measures and the DIT balanced scorecard by automating the data collection
and posting of performance results such that DIT managers could take corrective action more quickly
when warranted. Currently, there is an 8- to-10-week time lag between the quarter end and the internal
posting of performance results.


Enterprise Architecture (EA)
Rating: Warrants Management Attention

In business and technological terms, an EA defines an organization’s current and target operating
environments, including its information security architecture. Effectively representing security
information in an EA ensures that security is adequately incorporated into agency system life cycle
processes, as required by FISMA. In addition, FISMA requires agencies to develop and maintain an
inventory of major information systems, which is a fundamental component of an agency EA.

The FDIC has taken a number of important           Figure 3: EA Repository Challenges
steps toward full implementation of a
corporate-wide EA. Of particular note, the
FDIC has established an EA policy and EA
governance structure, adopted a SDLC
methodology,14 and developed an EA
Repository to store, classify, and organize its
EA data (including security data). The
FDIC’s EA Repository is the inventory of
FDIC applications and tools.

In July 2007, the FDIC released an improved
EA Repository that incorporates
enhancements to permit the tracking of
various security-related data elements and
facilitates the tracking of major and minor
applications. However, the FDIC has not
                                                  Source: KPMG Analysis.
assigned responsibility, in writing, for DIT
managers or business owners to periodically (quarterly or semi-annually) review the contents of the EA
Repository to ensure that it is accurate and reflects events such as system retirements, application
upgrades or consolidations, and changes in application points of contact. According to DIT’s ISPS, 19 of
the 319 application systems in the EA Repository were no longer in use at the FDIC as of July 31, 2007.
The lack of data integrity in the EA Repository introduces proved inefficiencies by requiring the use of
alternate sources to obtain accurate information, as noted in Figure 3 above. Developing guidance,
establishing review procedures, and assigning responsibility will help improve data integrity, promote
greater use of the EA Repository in DIT, and reduce reconciliation efforts to prepare a FISMA inventory
summary for OMB reporting purposes.

The FDIC retired Circular 1320.3, Systems Development Life Cycle (SDLC), and replaced it with DIT
Policy 07-005, Systems Development Life Cycle. At the time of our evaluation, DIT was working to
update Circular 1303.1, FDIC Enterprise Architecture Program, dated November 7, 2003, to reflect the

14
     The FDIC’s RUP® SDLC methodology includes FDIC-specific security requirements applicable to each phase of
     the development of an IT project.

                                                                                                        Page 12
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

current roles and responsibilities and coordination among organizational entities involved with the
FDIC’s Enterprise Architecture program. The OIG’s 2006 security evaluation report required by FISMA
noted that Circular 1303.1 was out of date.




                                                                                             Page 13
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007


MANAGEMENT CONTROLS

Management controls are the safeguards or countermeasures related to an information system that focus
on the management of risk and system security. NIST SP 800-53 Rev. 1 divides management controls
into four control families: Risk Assessment; Planning; System and Services Acquisition; and
Certification, Accreditation, and Security Assessments. In summary, security controls tested related to
Planning were effective. However, controls tested related to Risk Assessment and Certification,
Accreditation, and Security Assessments warranted management attention. We did not evaluate controls
related to System and Services Acquisition.

Risk Assessment (RA)
Rating: Warrants Management Attention

Risk is the probability of an adverse event             Table 3: Risk Assessment
occurring. Risk assessment involves the                 RA-1       Risk Assessment Policies and
implementation of policies and procedures for                      Procedures
categorizing information and systems, performing        RA-2       Security Categorization
and updating risk assessments, and performing           RA-3       Risk Assessment
regular system vulnerability scanning. Risk
                                                        RA-4       Risk Assessment Update
assessments occur in the system life cycle during
                                                        RA-5       Vulnerability Scanning
the information system’s initial development, after Source: NIST SP 800-53 Rev. 1.
significant upgrades, and after the completion of a     Legend: Selected security controls for KPMG testing
Security Test & Evaluation (ST&E).15
Additionally, conducting a risk assessment provides the agency with insight as to whether the security
controls in place adequately mitigate threats to the confidentiality, integrity, and availability of the
information processed by the system. Further, a current and complete risk assessment satisfies a control
requirement of the certification and accreditation (C&A) process as outlined in NIST SP 800-53 Rev.1
and SP 800-37. Under FISMA, agencies are responsible for (a) providing security protections
commensurate with the risk and magnitude of harm resulting from the unauthorized access, use,
disclosure, disruption, modification, or destruction of information and information systems; and (b)
establishing policies and procedures that ensure information security is addressed throughout the life
cycle of each agency information system.

KPMG identified deficiencies in the FDIC’s monthly vulnerability scanning process that prevented some
Internet-facing servers and other network equipment from being scanned on a monthly basis. Monthly
vulnerability scanning is a key control to identify missing security patches and configuration errors on
servers and other network equipment. The OIG recommended in its draft audit report, FDIC’s IT
Disaster Recovery Capability, further enhancements to the FDIC’s vulnerability scanning process to
ensure all IT devices connected to the network are scanned on a monthly basis. The FDIC initiated
corrective actions before that audit’s closure.

The FDIC has policies and procedures in place for performing risk assessments for information systems
that are generally consistent with NIST guidelines. In addition, DIT leverages an automated risk
assessment tool that incorporates the NIST SP 800-53 Rev. 1 control families to identify potential
vulnerabilities and countermeasures. However, KPMG observed that the risk assessments for two

15
     ST&E is an examination and analysis of the security safeguards of a system as they have been applied in an
     operational environment to determine the security posture of the system.

                                                                                                              Page 14
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

selected GSSs, the Windows Servers GSS and Personal Systems GSS, were not updated in the previous
three years, or when a significant change occurred to the system, as prescribed by FDIC policy and
recommended in NIST guidelines.16 In the three years following the most recent risk assessments for
these systems, significant changes occurred in the FDIC’s Windows server environment. Specifically,
DIT upgraded approximately one-half of the FDIC’s Windows servers (285 out of 596 servers) from
Windows 2000 and Windows NT 4.0 operating systems to Windows 2003 operating system. In addition,
DIT aggregated the boundaries of the Windows Servers GSS to include 87 FDIC-defined minor
applications and contractor systems. DIT’s ISPS acknowledged that the risk assessments for these
systems had not been updated but explained that full ST&Es for both GSSs had been conducted in the
previous two years as well as annual security self-assessments. ISPS concluded that the ST&Es and self-
assessments satisfied the intent of NIST’s risk assessment guidance.

However, risk assessments identify the controls necessary for adequate security, while ST&Es test the
effectiveness of security controls. Accordingly, KPMG believes that DIT should update risk assessments
as part of a continuous process that incorporates the outcomes of the ST&Es as recommended by NIST
risk management guidance.17 For example, control deficiencies identified from ST&Es should be
subsequently incorporated into risk assessments to retain lessons learned from past control assessments.
Where security exposures exist, the risk assessment should suggest additional or compensating controls to
mitigate risk. Updates to the risk assessment and identification of additional or compensating controls are
subsequently incorporated into System Security Plans (SSPs) and then tested as part of the ST&E.

Planning (PL)
Rating: Demonstrated Effectiveness

Planning involves the implementation of policies,             Table 4: Planning
procedures, and practices for developing SSPs.                PL-1      Security Planning Policy and
                                                                        Procedures
Security plans provide an overview of system security
requirements and describe the security controls in            PL-2      System Security Plan
place or planned for meeting those requirements.              PL-3      System Security Plan Update
Planning also involves establishing rules that describe       PL-4      Rules of Behavior
user responsibilities and expected behavior related to        PL-5      Privacy Impact Assessment
system usage, as well as conducting system Privacy            PL-6      Security-Related Activity Planning
Impact Assessments (PIA).18                                   Source: NIST SP 800-53 Rev. 1.
                                                              Legend:   Selected security control for KPMG testing

The FDIC’s security planning policies and procedures
were generally consistent with NIST security standards and guidelines. Following the OIG’s 2006
FISMA evaluation, the FDIC strengthened its security planning controls by establishing policy and
procedures requiring application owners to maintain security plans in StarTeam19 and to update the SSPs,
as part of the SDLC process. However, guidance for preparing SSPs should be enhanced to require that

16
   NIST SP 800-37 states that information system risk assessments are to be performed every three years or
   whenever there is a significant change to the system or its operational environment.
17
   NIST SP 800-30, Risk Management Guide for Information Technology Systems and NIST SP 800-53 Rev. 1,
   Recommended Security Controls for Federal Information Systems.
18
   PIAs are required under the E-Government Act of 2002 as implemented by OMB’s September 26, 2003
   Memorandum (M-03-22) entitled, OMB Guidance for Implementing the Privacy Provisions of the E-Government
   Act of 2002.
19
   StarTeam is a repository of documents and software source code that permits the FDIC to perform version control
   and track revision history.

                                                                                                                     Page 15
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

security plans describe how common security controls20 are considered in the security C&A process, as
noted in the 2006 FISMA evaluation. ST&Es of common security controls are performed separately from
ST&Es of application and GSS security controls. Enhancing guidance for preparing SSPs would provide
greater assurance that all relevant risks identified from the common controls ST&Es are considered when
accrediting an application or system.

Following the OIG’s 2006 FISMA evaluation, the FDIC strengthened controls in the Planning family by
enhancing its Security Plan template to incorporate the NIST SP 800-53 Rev. 1 control families. The
FDIC also aligned its minor applications with its GSSs and major applications. The FDIC performed this
realignment to increase efficiency, identify shared common controls, and incorporate refinements from
NIST SP 800-53 Rev. 1. Further, in the OIG’s Audit Report No. AUD-07-013, Response to Privacy
Program Information Request in OMB’s Fiscal Year 2007 Reporting Instructions for FISMA and Agency
Privacy Management, the OIG concluded that the FDIC’s PIA process was satisfactory and consistent
with relevant privacy-related policy, guidance, and standards.


System and Services Acquisition (SA)
Rating: Not Evaluated

System and services acquisition involves allocating resources to protect information systems,
implementing an SDLC methodology that addresses security, and including security requirements and/or
specifications in systems acquisitions. System and services acquisition also includes controls for system
documentation, software usage restrictions, security engineering principles, configuration management,
and developing security testing during development projects. KPMG did not perform sufficient testing to
assess system and services acquisition. The OIG may evaluate system and services acquisition security
controls in future FISMA evaluations.




20
     Common security controls can be applied to one or more information systems. Examples of common security
     controls include controls in Personnel Security, Incident Response, Physical and Environmental Protection, and
     Contingency Planning.

                                                                                                             Page 16
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007


Certification, Accreditation, and Security Assessments (CA)
Rating: Warrants Management Attention

The certification and accreditation of federal                    Table 5: Certification, Accreditation, and
information systems is critical to securing the                   Security Assessments
government’s operations and assets. Certification                 CA-1          Certification, Accreditation, and
involves the evaluation of an information system’s                              Security Assessment Policies and
management, operational, and technical security                                 Procedures

controls. Accreditation involves a senior agency                  CA-2          Security Assessments
official’s authorization of an information system to              CA-3          Information System Connections
operate. OMB requires agencies to certify and                     CA-4          Security Certification
accredit their information systems in accordance with             CA-5          Plan of Action and Milestones
federal security policies, standards, and guidelines.
                                                                  CA-6          Security Accreditation
At the close of KPMG’s current year evaluation, the
                                                                  CA-7          Continuous Monitoring
FDIC reported that it had fully certified and                     Source: NIST SP 800-53 Rev. 1.
accredited its major applications and GSSs.                       Legend:   Selected security controls for KPMG testing


The FDIC’s certification, accreditation, and security assessment policies and procedures were generally
consistent with NIST security standards and guidance. However, the FDIC needed to enhance its ongoing
security control assessments of its information systems to provide greater assurance that controls are
operating effectively. Such enhancements could include, for example, expanding the testing of minor
applications, contractor systems, and IT computer services (e.g., Structured Query Language (SQL)
database server, Exchange e-mail server). Such enhancements would allow the FDIC to identify and
correct the types of operational and technical control deficiencies discussed in this report. Such
deficiencies include weak password controls over application and database accounts with access to
sensitive information, including PII; sensitive network applications with excessive access privileges;
insufficient application audit logging and monitoring; and inadequately secured audit logs.

In the prior three OIG FISMA reports to OMB and the Congress, the OIG had suggested that DIT modify
its Plans of Action and Milestones (POA&M) procedures to ensure that all relevant information security
deficiencies are incorporated into or accompany system-level POA&Ms. Previously, the FDIC used
various systems to track and report system-level security deficiencies based on how the deficiency was
identified. For example, system-level security deficiencies identified during the ST&E process were
tracked and reported through system-level POA&Ms, while system-level security deficiencies identified
during GAO, OIG, and others’ reviews were tracked in the Internal Risks Information System (IRIS).21
In June 2007, the ISPS modified its POA&M practices by developing a POA&M template and process to
capture control deficiencies identified by other security reviews beyond the ST&E. ISPS has informed
the FDIC’s ISMs that POA&Ms should include findings from risk assessments, technical security
assessments, ST&Es, FISMA self-assessments, and FDIC OIG or GAO audit findings. KPMG applauds
DIT’s decision to centralize and consolidate the tracking of information security deficiencies, as this
approach is consistent with NIST and OMB guidance.




21
     IRIS is the FDIC’s official tracking database for all GAO and FDIC OIG audits and reviews. It is used to track
     audit findings/conditions, recommendations, and corrective actions/milestones. FDIC divisions and offices can
     also use IRIS to track the results of their internal control reviews, visitations, and other activities related to
     managing risks.

                                                                                                                          Page 17
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

While DIT’s revised approach for tracking information security vulnerabilities is positive, continued
management attention is necessary to ensure the POA&Ms include all known information security
deficiencies. During fieldwork, KPMG observed two instances where information security deficiencies
were not subsequently incorporated into system-level POA&Ms. In one instance, DIT’s information
security contractor identified security deficiencies associated with System and Information Integrity
security control, SI-2 Flaw Remediation, that was not incorporated into the Windows Servers POA&M.
In another instance, previously reported security deficiencies associated with session time out for inactive
remote network connections were not captured in the Windows Servers or Data Communications
Infrastructure POA&M. Continued management attention on incorporating all known information
security deficiencies into POA&Ms will enable management to better prioritize remediation efforts and
track issues through closure.




                                                                                                     Page 18
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007


OPERATIONAL CONTROLS

Operational controls are the safeguards and countermeasures for an information system that are primarily
implemented and executed by individuals (as opposed to information systems). Operational controls
include nine control families: Physical and Environmental Protection; Personnel Security; Contingency
Planning; Configuration Management; Maintenance; System and Information Integrity; Media
Protection; Incident Response; and Awareness and Training. In summary, the controls tested in the areas
of Contingency Planning, Maintenance, Incident Response, Configuration Management and Awareness
and Training were effective. However, the controls tested related to Physical and Environmental
Protection, Personnel Security, System and Information Integrity, and Media Protection warranted
management attention.


Physical and Environmental Protection (PE)
Rating: Warrants Management Attention
                                                                  Table 6: Physical and Environmental Protection
Physical and environmental protection relates to those            PE-1         Physical Security and
security measures aimed at safeguarding information                            Environmental Policy and
                                                                               Procedures
systems, facilities, and related supporting
infrastructures from threats. Such security measures              PE-2         Physical Access Authorizations
include, but are not limited to, physical access controls,        PE-3         Physical Access Control
emergency power and lighting, fire protection, and                PE-4         Access Control for Transmission
temperature and humidity controls. Such measures also                          Medium
include procedures for the delivery and removal of                PE-5         Access Control for Display Medium
systems hardware, firmware, and software to and from              PE-6         Monitoring Physical Access
facilities.                                                       PE-7         Visitor Control
                                                                  PE-8         Access Records
The FDIC has established corporate-wide physical
                                                                  PE-9         Power Equipment and Cabling
security program policies22 and procedures. In addition,
DIT has conducted security tests and evaluations of               PE-10        Emergency Shutoff
Physical and Environmental Protection controls and                PE-11        Emergency Power
developed POA&Ms to address the control deficiencies              PE-12        Emergency Lighting
it identified. Further, DOA maintained physical access            PE-13        Fire Protection
logs for the Virginia Square Data Center. Additionally,           PE-14        Temperature and Humidity Controls
DOA enhanced controls over visitors to the FDIC’s
                                                                  PE-15        Water Damage Protection
headquarters facilities by adopting procedures in
                                                                  PE-16        Delivery and Removal
February 2007 that ensure the verification of visitors’
backgrounds and intended purposes before allowing                 PE-17        Alternate Work Site

their entry. Such actions were positive; however,                 PE-18        Location of Information System
during the evaluation, the OIG identified several                              Components
physical security control deficiencies warranting                 PE-19        Information Leakage
management attention.                                             Source: NIST SP 800-53 Rev. 1.
                                                                  Legend: 9Selected security controls for OIG testing

On July 3, 2007, the OIG conducted an after-hours
walkthrough of the FDIC’s Virginia Square facility in Arlington, Virginia, and identified one exterior

22
     Such policies include Circulars 1610.1, FDIC Physical Security Program; and 1600.2, FDIC Security in the
     Workplace Program.

                                                                                                                        Page 19
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

door to the building and several interior doors to the mainframe and server computer rooms that were
unsecured. The doors had been automatically unlocked during our walkthrough by the building’s
emergency system in response to a water leak in the fire suppression system. However, for several hours,
building security personnel were unaware that these doors remained unsecured. Such a vulnerability
presented a risk that unauthorized individuals could enter the Virginia Square facility or access sensitive
computing areas. An OIG representative notified building security personnel of the vulnerable doors, and
guards were subsequently placed at the doors until they were locked. OIG representatives discussed this
physical access control vulnerability with DOA officials. DOA subsequently improved procedures for
restoring physical access security at the Virginia Square facility following an emergency.

The OIG also identified four unsecured mechanical rooms housing the Virginia Square facility’s heating,
ventilation, and air conditioning systems, water supply, and electrical equipment. After bringing this
matter to DOA’s attention, DOA officials determined that the mechanical room doors were not closing
properly for various reasons, such as internal airflow pressure on the doors and improper sealing around
the doorframes. Prior to the close of our fieldwork, DOA adjusted all four mechanical room doors to
ensure they properly close and lock. In addition, during a June 20, 2007 after-hours walkthrough, the
OIG identified an unsecured engineering room in the FDIC’s main headquarters building housing critical
electrical equipment. After alerting the building’s security personnel to this vulnerability, the engineering
room was locked.

The Physical and Environmental Protection control family also includes controls for authorizing physical
access to facilities. The OIG was unable to determine whether selected employees recently hired by the
FDIC with access to the FDIC’s facilities had an appropriate access authorization because access
authorization documentation was not readily available. Using a non-statistical sample23 of 20 employees
hired by the FDIC from July 1, 2006 through April 30, 2007, the OIG attempted to verify whether FDIC
Form 1620/01, Employee/Contractor Identification Card Request (or equivalent documentation), had
been completed and approved.24 DOA officials were unable to locate a completed FDIC Form 1620/01
for seven of the 20 selected employees. The OIG cited a lack of completed FDIC Forms 1620/01 as a
deficiency in its 2006 FISMA evaluation report. In response to the OIG’s findings, DOA decided to
document the authorization and approval of FDIC-issued identification badges for employees already on-
board in conjunction with the issuance of new personal identity verification cards that implement
Homeland Security Presidential Directive/Hspd-12, Policy for a Common Identification Standard for
Federal Employees and Contractors (HSPD-12).25 FDIC Forms 1620/01 would continue to be completed
whenever new identification cards are issued. However, based on the OIG’s current year work, DOA
needs to implement additional measures to ensure that FDIC Forms 1620/01 are maintained when new
identification cards are issued.




23
   Within this report, we used non-statistical samples and duly noted their use. The results of non-statistical samples
   cannot be projected to the intended population by standard statistical methods.
24
   FDIC Circular 1610.1, FDIC Physical Security Program, states that administrative officers are responsible for
   approving FDIC Form 1620/01 for all new employees, interns, detailees, and others who require an FDIC
   identification badge. Once completed and approved, the form is provided to DOA’s Corporate Services Branch.
25
   On August 27, 2004, the President issued HSPD-12 requiring the development and implementation of a
   mandatory, government-wide standard for secure and reliable forms of identification. The FDIC is not required to
   implement HSPD-12, but has decided to voluntarily comply with HSPD-12.

                                                                                                               Page 20
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

Personnel Security (PS)
Rating: Warrants Management Attention
                                                          Table 7: Personnel Security
Personnel security involves the implementation of         PS-1       Personnel Security Policy and
policies, procedures, and practices for assigning                    Procedures

risk designations to positions, screening                 PS-2       Position Categorization
individuals for those positions, and ensuring that        PS-3       Personnel Screening
systems access is terminated when personnel leave         PS-4       Personnel Termination
an agency or are transferred. Personnel security          PS-5       Personnel Transfer
also involves ensuring that appropriate access
                                                          PS-6       Access Agreements
agreements, such as nondisclosure and conflict of
                                                          PS-7       Third-Party Personnel Security
interest agreements, are in place for employees and
contractors and implementing a formal sanctions           PS-8       Personnel Sanctions
                                                          Source: NIST SP 800-53 Rev. 1.
process for personnel who fail to comply with             Legend: 9 Selected security controls for OIG testing
security policies and procedures.

The FDIC has established personnel-related (employees and contractors) policies, procedures, and
guidelines26 that are generally consistent with NIST guidelines. In addition, the OIG noted that
employees and contractors were preparing written confidentiality agreements as prescribed by Circular
2410.1 and the FDIC’s Acquisition Policy Manual.27 Further, DIT was in the process of validating its
employee position descriptions against actual duties and responsibilities in response to the division’s
recent re-organization. DIT plans to re-evaluate the appropriateness of its employee risk level
designations after it completes ongoing efforts to validate its employee position descriptions. These
actions were positive; however, as discussed below, the OIG identified Personnel Security-related control
deficiencies warranting management’s attention.

The OIG reviewed background investigation documentation for employees and contractors to determine
whether individuals with physical access to the Virginia Square mainframe or server computer rooms had
a background investigation commensurate with the risk associated with their access. FDIC and contractor
employees working in FDIC offices undergo a fingerprint and credit check before they are allowed access
to FDIC facilities. After an individual begins work, the FDIC and the individual send additional personal
information to OPM for a background investigation. Of the 185 individuals who, as of July 13, 2007, had
physical access to the mainframe or server computer rooms, 33 did not have OPM background
investigations commensurate with the risk associated with their access because the scope of their OPM
investigation was below the Moderate risk level. All 33 individuals were DOA contractor employees
assigned to contracts that had a risk level designation of Low. Further, the OIG noted that the FDIC had
not initiated a background investigation with OPM for six of the 33 referenced individuals and that one of
the six individuals had worked for the FDIC for over two years. The FDIC should evaluate the risk level
designations of contractor employees with physical access to restricted areas, such as the computer rooms,
and allow access only after confirming that OPM has sufficient information to conduct the appropriate
background investigation. The OIG briefed DOA management on this condition during the evaluation
and identified the individual contractor employees for DOA’s review. DOA started the OPM background


26
   Such policies include Circulars 2120.1, Personnel Suitability Program; 2210.1, FDIC Position Management and
   Classification Program; 2150.1, Pre-Exit Clearance Procedures for FDIC Employees; and 2410.1, Public and
   Confidential Financial Disclosure Report and Other Related Employee Ethics Forms Required to be Filed.
27
   Based on an OIG review of a non-statistical sample of 20 employees hired by the FDIC from July 1, 2006 through
   April 30, 2007 and 18 security contractor employees at the regional offices the OIG visited.

                                                                                                                 Page 21
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

investigation process for the six contractor employees without an OPM background investigation and is
reviewing the duties and risk level designations for the 33 contractor employees.

Using information in the Corporate Human Table 8: FDIC Employee Risk Level Designations
Resources Information System (CHRIS),28       CHRIS Risk              Number of        Number of      Insufficient
the OIG selected a separate non-statistical   Level                  Employees         Employees      Background
sample of 197 of the FDIC’s 4,658             Designation                               Sampled       Investigation
employees on board as of July 19, 2007 to     National                          63                3
determine whether background                  Security*
investigations were commensurate with
                                              High                            348                29
risk level designations. As shown in
                                              Moderate                      2,856               161              32
Table 8, the OIG found that 32 employees
                                              Low                           1,391                 4
in positions with a Moderate risk level
                                              Totals                        4,658               197              32
designation had a background investigation
                                            Source: OIG analysis of CHRIS and DOA records.
consistent with a Low risk level position.  * National Security clearance levels are Secret and Top Secret.
According to a DOA representative, for
employees with a High and National Security risk level designation in CHRIS, DOA performed monthly,
manual reviews of completed background investigations to identify discrepancies. However, a similar
review is not performed for employees with a Moderate risk level designation because of the large
number of employees in this category. DOA should develop procedures to better ensure that employee
background investigations are commensurate with risk level designations. We discussed this issue with
DOA during the evaluation, and DOA began a review of the 32 employees’ risk level designations and
background investigations.

DOA recognizes that improvements are needed in its processes for establishing risk level designations
and conducting background investigations. In a September 29, 2006 internal report, DOA’s Management
Support Section concluded that audit trails for approving, authorizing, verifying, reconciling, and
maintaining risk level designation determinations within DOA were not clearly evident as changes are
made. The report also noted that supporting documentation was often not retained or did not exist to
support risk level determinations or changes in risk level assignments within DOA. DOA was working to
address the deficiencies identified in the internal review report during this evaluation.




28
     CHRIS is a major application that provides human resource related information.

                                                                                                            Page 22
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

Contingency Planning (CP)
Rating: Demonstrated Effectiveness
                                                                      Table 9: Contingency Planning
Effective contingency planning and testing is essential to            CP-1     Contingency Planning Policy and
mitigate the risk of system and service unavailability.                        Procedures

Contingency planning involves developing and                          CP-2     Contingency Plan
implementing system contingency plans that address roles,             CP-3     Contingency Training
responsibilities, and activities associated with restoring a          CP-4     Contingency Plan Testing and
system after a disruption or failure. Such planning also                       Exercises
involves training personnel, testing systems, performing              CP-5     Contingency Plan Update
system backups, and establishing alternative processing               CP-6     Alternative Storage Sites
sites.
                                                                      CP-7     Alternative Processing Sites
                                                                  CP-8      Telecommunication Services
The FDIC has taken a number of positive steps in the area
of contingency planning. Of particular note, the FDIC has         CP-9      Information System Backup
                                                            29
established a DIT contingency planning program policy.            CP-10     Information System Recovery and
Further, the FDIC has documented system recovery plans                      Reconstitution
                                                                  Source: NIST SP 800-53 Rev. 1.
in the DIT Business Continuity Plan that were current and         Legend: 9 Selected security controls for KPMG testing
consistent with NIST guidance. In addition, the FDIC
conducted a disaster recovery test of its mission-critical applications and GSSs in April 2007. The
disaster recovery test was successful in achieving its primary objective of recovering the FDIC’s mission-
critical applications and GSSs within pre-determined timeframes. The FDIC prepared a formal report
detailing the results of its disaster recovery testing and developed plans to address the issues it identified
during the testing.

The above actions are positive; however, a recent audit of the FDIC’s IT disaster recovery capability30
identified several opportunities for the FDIC to improve its Contingency Planning controls. Specifically,
the audit noted that DIT needed to update the FDIC’s contingency planning program policy to reflect the
Corporation’s current IT disaster recovery environment and recent NIST guidance, and document (and
test as appropriate) its plans for recovering certain security services designed to protect the FDIC’s
network during a disaster. In addition, the audit noted that the FDIC was working to update its Business
Impact Analysis (BIA). Based on the collective control strengths and deficiencies related to contingency
planning, KPMG determined that the Contingency Planning control family demonstrated effectiveness.




29
     Circular 1360.13, DIT’s Contingency Planning Program Policy, dated November 22, 2004.
30
     Draft OIG Report, FDIC’s IT Disaster Recovery Capability, dated August 24, 2007. KPMG provided technical
     assistance to the FDIC OIG in the evaluation of FDIC’s IT Disaster Recovery capability.

                                                                                                                 Page 23
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

Configuration Management (CM)
Rating: Demonstrated Effectiveness
                                                          Table 10: Configuration Management
Key to ensuring the confidentiality, integrity, and       CM-1        Configuration Management Policies
availability of any information system is                             and Procedures

implementing structured processes for managing the        CM-2        Baseline Configuration
inevitable changes that will occur during the             CM-3        Configuration Change Control
system’s life cycle. Such processes, collectively         CM-4        Monitoring Configuration Changes
referred to as configuration management, include          CM-5        Access Restrictions for Change
evaluating, authorizing, testing, tracking, reporting,    CM-6        Configuration Settings
and verifying both hardware and software changes.
                                                          CM-7        Least Functionality
Inadequate configuration management controls
                                                          CM-8        Information System Component
increase the risk that unauthorized programs or
                                                                      Inventory
untested changes could inadvertently or deliberately      Source: NIST SP 800-53 Rev. 1.
be implemented and negatively affect system               Legend: 9 Selected security controls for KPMG testing
performance or security.

Importantly, the FDIC established a corporate-wide software configuration management policy covering
all of its application and system software.31 The policy requires that the FDIC’s software configuration
management practices be consistent with the principles of the Capability Maturity Model Integration
(CMMI)32 and relevant federal standards and guidelines. In addition, DIT established the FDIC
Infrastructure Change Control Board to, among other things, review and approve changes to the FDIC’s
IT infrastructure and technical architecture, including the Windows Servers and Personal Systems GSS.
DIT also developed software configuration management plans for its Windows Servers and Personal
Systems GSS.

On March 22, 2007, OMB issued Memorandum M-07-11 entitled, Implementation of Commonly
Accepted Security Configurations for Windows Operating Systems.33 The OMB memorandum requires
agencies using the Windows XP operating system to adopt the security configurations developed by
NIST, the Department of Defense, and the Department of Homeland Security no later than
February 1, 2008. The OMB memorandum states that adopting such configurations are important to
improving information security and reducing overall IT operating costs. As part of its FISMA evaluation
work, KPMG compared the security configuration settings recommended in NIST SP 800-68, Guidance
for Securing Microsoft Windows XP Systems for IT Professionals: A NIST Security Configuration
Checklist (dated October 2005), to the standard security configuration settings of the FDIC’s Windows
XP desktop. KPMG noted that 27 of 133 configuration settings implemented by the FDIC, including
settings related to passwords, account lockouts, and event log sizes, were less restrictive than those
recommended in NIST SP 800-68. Implementing configuration settings that are less restrictive than those
recommended by NIST can pose additional risks to the confidentiality, integrity, and availability of FDIC
desktops and laptops. KPMG brought these discrepancies to DIT’s attention during the evaluation, and
DIT began evaluating the impact. DIT is currently seeking internal approval of an automated tool that
will facilitate a comparison of the security configuration settings of the FDIC’s Windows servers and
desktops to NIST-recommended configuration settings. As of the time of our fieldwork, DIT planned to
implement the tool in September 2007. DIT officials indicated that there were differences between the

31
   Circular 1320.4, FDIC Software Configuration Management Policy, dated June 8, 2006.
32
   A process improvement methodology developed by Carnegie Mellon University’s Software Engineering Institute.
33
   The FDIC has determined that, in connection with this memorandum, OMB does not have authority to direct the
   FDIC to take certain actions of OBM’s choosing.

                                                                                                                  Page 24
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

configuration settings implemented by the FDIC and those recommended by NIST SP 800-68 because the
FDIC had initially adopted a security configuration based on the National Security Agency’s guidance
prior to the publication of NIST SP 800-68 in October 2005.

Further, KPMG’s testing showed that DIT has effective controls in place for monitoring and tracking
configuration changes for information systems. KPMG reviewed a non-statistical sample of 30
configurations out of total population of 456 and successfully identified change approvals from DIT for
each one.


Maintenance (MA)
Rating: Demonstrated Effectiveness
                                                        Table 11: Maintenance
Maintenance involves scheduling, performing, and        MA-1       System Maintenance Policy and
                                                                   Procedures
documenting preventative and regular maintenance
on components of information systems in accordance      MA-2       Controlled Maintenance
with manufacturer or vendor specifications and/or       MA-3       Maintenance Tools
organization requirements. Maintenance also             MA-4       Remote Maintenance
involves approving, controlling, and monitoring         MA-5       Maintenance Personnel
maintenance tools and activities.                       MA-6       Timely Maintenance
                                                        Source: NIST SP 800-53 Rev. 1.
The FDIC has established policies and procedures for    Legend: 9 Selected security controls for KPMG testing

maintaining its information system components.
Importantly, the FDIC maintains current, vendor-supported operating system software for its Windows
servers and Windows desktops and laptops. Further, at the time of our evaluation, the FDIC was in the
process of replacing its laptop computers as part of a planned corporate laptop replacement project.




                                                                                                                Page 25
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007


System and Information Integrity (SI)
Rating: Warrants Management Attention
                                                            Table 12: System and Information Integrity
                                                            SI-1    System and Information Integrity Policy
System and information integrity includes security
                                                                    and Procedures
controls for identifying, reporting, and correcting
                                                            SI-2    Flaw Remediation
information system flaws. Such flaws can be
discovered through system security assessments,             SI-3    Malicious Code Protection
continuous monitoring, or software vendors that             SI-4    Information System Monitoring Tools
recommend the implementation of software patches,                   and Techniques
service packs, or hotfixes to their software. System        SI-5    Security Alerts and Advisories
and information integrity also involves the                 SI-6    Security Functionality Verification
deployment of virus protection and intrusion                SI-7    Software and Information Integrity
detection mechanisms to protect the agency’s IT             SI-8    Spam Protection
operations and the implementation of controls to
                                                            SI-9    Information Input Restrictions
ensure the accuracy, completeness, and validity of
                                                            SI-10   Information Accuracy, Completeness,
information.
                                                                    Validity, and Authenticity

The FDIC has established policies and procedures             SI-11    Error Handling

designed to ensure the integrity of its systems and          SI-12    Information Output Handling and
information. DIT has deployed anti-virus software                     Retention
                                                             Source: NIST SP 800-53 Rev. 1.
to protect its Windows Servers and Personal Systems Legend: 9 Selected security controls for KPMG testing
GSS and implemented a new intrusion detection
system (IDS) within the last year to log, store, and
aggregate network IT events. In addition, DIT has established a software patch management policy,34
adopted performance measures to monitor the deployment of patches against pre-established timeframes,
and reported the status of its patch identification, testing, and deployment activities. DIT has been
working hard to ensure the timely implementation of software patches in the Windows Servers and
Personal Systems GSSs. However, continued management attention is warranted to ensure that all
Windows servers are appropriately patched in a timely manner to protect against known security
vulnerabilities.

As part of system and information integrity control testing, KPMG selected 34 of 67 Windows servers in
the FDIC’s disaster recovery computing facility on April 26, 2007 for a detailed security configuration
review. KPMG found that 2 of the 34 servers were each missing over 40 security patches. Many of the
missing security patches were classified by the Microsoft Corporation as critical, presenting a serious risk
to the operation of the servers. Although DIT took prompt action to patch the two vulnerable servers
during the FISMA evaluation, these actions provided only a temporary solution to a broader management
challenge. The OIG indicated in a draft report35 that DIT should implement control improvements in its
patch deployment processes to help ensure that all Windows servers are patched in a timely manner. In
addition, KPMG noted that limitations in DIT’s vulnerability scanning processes prevented DIT from
detecting the lack of security patches on these two servers. Accordingly, the OIG is recommending that
DIT enhance its vulnerability scanning processes to ensure that all servers in the production environment
are routinely scanned for security vulnerabilities.


34
     DIT Policy 04-004, Policy on Security Patch Management, published April 15, 2005
35
     Draft OIG Report, FDIC’s IT Disaster Recovery Capability, dated August 24, 2007. KPMG provided technical
     assistance to the FDIC OIG in the evaluation of FDIC’s IT Disaster Recovery capability.

                                                                                                              Page 26
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

Media Protection (MP)
Rating: Warrants Management Attention
                                                               Table 13: Media Protection
                                                                           Media Protection Policy and
Media protection involves those security controls              MP-1
                                                                           Procedures
related to controlling access to hardcopy and
                                                               MP-2        Media Access
electronic media, labeling media consistent with its
sensitivity, and ensuring the security of stored media.        MP-3        Media Labeling

Media protection also involves safeguarding the                MP-4        Media Storage
transportation of media and ensuring that appropriate          MP-5        Media Transport
controls are in place when sanitizing and disposing of         MP-6        Media Sanitation and Disposal
media.                                                         Source: NIST SP 800-53 Rev. 1.
                                                               Legend: 9 Selected security controls for KPMG testing

On April 30, 2007, the FDIC issued Circular 1360.9, Protecting Sensitive Information, requiring, among
other things, that FDIC employees and contractors label portable storage media (e.g., CDs/DVDs and
USB thumb drives) as containing sensitive information; limit access to sensitive information to only those
individuals with a business need to know; store sensitive information only on Corporation-owned IT
equipment; encrypt sensitive information stored on end-user IT equipment (e.g., FDIC laptop computers)
and portable storage media; properly dispose of sensitive electronic media when it is no longer needed;
and notify appropriate officials should a compromise of sensitive information occur. The issuance of this
policy was a significant improvement for the FDIC’s media protection controls. However, as described
below, KPMG identified several control areas related to media protection that warranted management
attention.

As of August 31, 2007, the FDIC was in the process of deploying new software that automatically
encrypts sensitive information stored on the FDIC’s laptop computers. This software is replacing the
FDIC’s older encryption solutions that require manual intervention by users, limiting management’s
assurance that sensitive information is consistently encrypted. In addition, a recent audit completed by
the OIG noted that FDIC employees were not encrypting sensitive information stored on portable storage
media as prescribed by FDIC policy.36 Although the FDIC has implemented encryption software to
protect sensitive information stored on portable storage media, the software also requires manual
intervention by users, limiting management’s assurance that sensitive information is consistently
encrypted. DIT plans to identify and subsequently deploy new encryption software for its portable
storage media. DIT also plans to deploy encryption software on all agency Personal Digital Assistants
and BlackBerrys®.

On June 20 and July 3, 2007, the OIG conducted after-hours walkthroughs of selected FDIC headquarters
facilities and identified hardcopy sensitive information (including PII) stored in unsecured filing rooms
and unsecured filing cabinets located in common areas. The OIG promptly notified DOA and DIT
officials of the locations of this information, and corrective action was taken or underway at the close of
our evaluation. The OIG also conducted walkthroughs of three FDIC regional office buildings in June
2007. In general, the OIG found that regional offices were taking reasonable steps to secure sensitive
hardcopy information. However, the OIG noted isolated instances of unsecured PII in each of the three
regional offices visited. The OIG immediately brought these isolated instances to the attention of regional
office officials, and corrective action was taken to secure the hardcopy and electronic media.



36
     FDIC OIG Audit Report No. AUD-07-010, Division of Resolutions and Receiverships Protection of Electronic
     Records, dated September 5, 2007.

                                                                                                                       Page 27
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

The FDIC routinely transports mainframe and server backup tapes to an off-site contactor location for
both archiving and disaster recovery purposes. Although the backup tapes contain sensitive information,
they are not encrypted. OMB Memorandum M-06-16, Protection of Sensitive Agency Information, dated
June 23, 2006, recommends that agencies encrypt all data on mobile computers/devices that carry agency
data unless the data is determined, in writing, to be non-sensitive data. In addition, NIST SP
800-53 Rev. 1 states that an organization’s assessment of risk should guide the use of encryption for
backup information. Given the high volume of data stored on its backup tapes, the loss or compromise of
a backup tape could have a significant impact on the FDIC. At the close our evaluation, a DIT official
advised KPMG that DIT had investigated available encryption solutions for securing tape media but had
not found a solution that would operate across its IT environment. The DIT official stated DIT is
concentrating its encryption efforts on the higher-risk areas such as laptops, USB thumb drives,
Blackberrys®, PDAs, and desktops before exploring encryption for its backup tapes. Although not
specifically required by statute, NIST standards, or OMB guidelines, the FDIC should consider
encrypting its backup tapes to reduce the risk of a potential unauthorized disclosure of sensitive
information


Incident Response (IR)
Rating: Demonstrated Effectiveness
                                                             Table 14: Incident Response
FISMA requires that agency information security                       Incident Response Policy and
                                                             IR-1
                                                                      Procedures
programs include procedures for detecting,
reporting, and responding to security incidents.37           IR-2     Incident Response Training
Implementing an effective incident response                  IR-3
                                                                      Incident Response Testing and
capability involves considering many factors,                         Exercises
including training and detection, analysis,                  IR-4     Incident Handling
containment, eradication, reporting, and recovery            IR-5     Incident Monitoring
from security incidents.                                     IR-6     Incident Reporting

                                                             IR-7     Incident Response Assistance
The FDIC maintains a computer security                Source: NIST SP 800-53 Rev. 1.
incident response capability that is consistent       Legend: 9 Selected security controls for KPMG testing
with NIST SP 800-61, Computer Security
Incident Handling Guide. The FDIC has prepared procedural manuals containing detailed guidance for
the prevention, detection, analysis, response, recovery, and reporting of security incidents. The FDIC also
provides regular training for its Computer Security Incident Response Team members. At the close of
our evaluation, DIT was working to develop a security breach plan and guidelines in response to OMB’s
May 22, 2007 Memorandum 07-16, Safeguarding Against and Responding to the Breach of Personally
Identifiable Information.




37
     NIST SP 800-61 defines an incident as a violation of computer security policies, acceptable use policies, or
     standard computer security practices.

                                                                                                                Page 28
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

Awareness and Training (AT)
Rating: Demonstrated Effectiveness
                                                          Table 15: Awareness and Training
FISMA requires federal agencies to provide                       Security Awareness and Training
                                                      AT-1
security awareness training to users of agency                   Policy and Procedures

information systems and requires agency CIOs          AT-2       Security Awareness
to ensure proper oversight and training of            AT-3       Security Training
personnel with significant information security       AT-4       Security Training Records
responsibilities. In addition, federal                           Contacts with Security Groups and
regulations38 require agencies to develop a           AT-5
                                                                 Associations
security awareness and training plan, identify        Source: NIST SP 800-53 Rev. 1.
                                                      Legend: 9Selected security controls for KPMG testing
employees with significant security
responsibilities, and provide role-specific training in accordance with NIST standards and guidelines.

Circular 1360.16, Mandatory Information Security Awareness Training, requires users of the FDIC’s
network to complete an annual Web-based information security awareness orientation.39 The circular
states that new employees shall log on and review the FDIC’s information security awareness Web-site
and orientation as soon as their network access is granted; failure to do so within 5 working days of
receiving a network ID may result in revoking the employee’s or contractor’s access to FDIC systems and
applications. The FDIC continued its prior-year practices of requiring (a) network users to complete the
annual security awareness orientation, (b) major application users to complete application-specific
security awareness training, and (c) GSS technicians and managers to complete system-specific security
training. In addition, DIT developed a formal training plan to ensure its staff with significant information
security responsibilities receive appropriate security training for the type of work they perform.

KPMG determined that DIT had addressed a prior-year deficiency related to new network users not
completing the security awareness orientation on a timely basis. In addition, KPMG identified several
opportunities for DIT to enhance the effectiveness of the FDIC’s security awareness and training
practices. Such enhancements include, for example, better integration of the FDIC’s security policies and
procedures. KPMG discussed these minor enhancements during a September 6, 2007 meeting with the
CIO.




38
     The FDIC has determined that these regulations entitled, Information Security Responsibilities for Employees
     Who Manage or Use Federal Information Systems (5 Code of Federal Regulations Part 930 Subpart C) apply to
     the Corporation.
39
     The orientation includes information about laws, regulations, and policies related to computer security; rules of
     behavior for systems and major applications; tips on effective security; and links to additional sources of
     information.

                                                                                                                Page 29
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007


TECHNICAL CONTROLS

Technical controls are the safeguards or countermeasures for an information system that are primarily
implemented and executed by the system through mechanisms contained in the hardware, software, or
firmware components of the system. NIST SP 800-53 Rev. 1 separates technical controls into four
control families: Identification and Authentication; Access Control; Audit and Accountability; and
System and Communications Protection. In summary, the controls tested related to Identification and
Authentication, Access Control, and Audit and Accountability warranted management attention. We did
not evaluate System and Communications Protection as part of our current-year work.


Identification and Authentication (IA)
Rating: Warrants Management Attention
                                                  Table 16: Identification and Authentication
Identification and authentication includes        IA-1       Identification and Authentication
security controls designed to verify the                     Policy and Procedures
identity of individual users, processes, or       IA-2       User Identification and Authentication
devices as a prerequisite to allowing access to   IA-3       Device Identification and
information systems and data. Identification                 Authentication
and authentication can be accomplished using      IA-4       Identifier Management
various means, such as passwords, card            IA-5       Authenticator Management
tokens, biometrics, or some combination           IA-6       Authenticator Feedback
thereof.
                                                  IA-7       Cryptographic Module Authentication
                                                  Source: NIST SP 800-53 Rev. 1.
The FDIC established policies and procedures      Legend: 9 Selected security controls for KPMG testing
designed to identify and authenticate users of
its information systems. However, KPMG
identified security control deficiencies warranting management attention. Specifically, KPMG conducted
a limited review of the security configuration of four database servers in the Windows Servers GSS as of
July 20, 2007 and identified five database accounts with weak passwords. None of the passwords used to
protect these five accounts satisfied the requirements of Circular 1360.10, Corporate Password
Standards, regarding (among other things) length, use of alphanumeric or special characters, periodic
resets, and complexity (i.e., hard to guess). Circular 1360.10 states that passwords must be well designed
and properly implemented because they are often the first line of defense for limiting access to corporate
data to authorized users. These password deficiencies elevated the risk that a network user could have
used these accounts, without authorization, to access, modify, or delete sensitive FDIC information.
KPMG apprised DIT of the weak password deficiencies, and DIT promptly took corrective action. DIT
should enhance its continuous monitoring program to achieve greater assurance of detecting weak
passwords throughout the Windows Servers GSS.

NIST recommends that organizations encrypt passwords when transmitted over a network to guard
against eavesdropping. Generally, the FDIC observes this security practice; however, KPMG identified
two instances where user IDs and passwords were transmitted without being encrypted across the FDIC’s
internal network in its data center. In one instance, KPMG noted that the FDIC’s Remote Client Network
(RCN) Web servers did not encrypt user IDs and passwords that it exchanged with other RCN Windows
servers across the FDIC’s internal network. In a second instance, KPMG observed that a Windows job-
scheduling server exchanged a powerful mainframe user ID and password without encryption to the
FDIC’s production mainframe to initiate batch jobs. Circular 1360.10, Corporate Password Standards,


                                                                                                          Page 30
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

states that passwords must never be transmitted without being encrypted. KPMG recognizes that
mitigating controls, such as physical security controls, exist. However, the FDIC could improve its
identification and authentication controls by implementing only those technical solutions that encrypt user
IDs and passwords.

FIPS PUB 201, Personal Identity Verification of Federal Employees and Contractors, and associated
publications establish standards and requirements for the identity verification of federal employees and
contractors and for the issuance of Personal Identity Verification (PIV) credentials.40 OMB directed
agencies to begin issuing identity credentials to meet the FIPS PUB 201 standard by October 27, 2006.41
Government corporations such as the FDIC are encouraged to comply with HSPD-12. With regard to the
FDIC’s efforts to implement a PIV system that is consistent with FIPS PUB 201 for its employees and
contractors, DOA has drafted a project plan describing the FDIC’s intended approach for implementing
the goals and objectives of HSPD-12. According to the draft plan, the FDIC estimates that it will begin
issuing HSPD-12 compliant identity credentials in late 2007 or early 2008.




40
     NIST issued FIPS PUB 201 in response to HSPD-12.
41
     OMB Memorandum M-05-24, Implementation of Homeland Security Presidential Directive (HSPD) 12 – Policy
     for a Common Identification Standard for Federal Employees and Contractors, dated August 5, 2005.

                                                                                                    Page 31
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007


Access Control (AC)
Rating: Warrants Management Attention

Information system access controls (i.e., logical          Table 17: Access Control
access controls) provide assurance that system             AC-1       Access Control Policy and
resources can be accessed only by authorized                          Procedures

users in authorized ways. Logical access                   AC-2       Account Management
controls provide a technical means of                      AC-3       Access Enforcement
controlling the information users can read and             AC-4       Information Flow Enforcement
copy, the programs they can execute, and the               AC-5       Separation of Duties
modifications they can make.
                                                           AC-6       Least Privilege
                                                           AC-7       Unsuccessful Login Attempts
The FDIC has established policies and
procedures that communicate corporate-wide                 AC-8       System Use Notification

roles and responsibilities for managing access to          AC-9       Previous Logon Notification
its information systems, data, and remote                  AC-10      Concurrent Session Control
access.42 The FDIC was also working to                     AC-11      Session Lock
implement several key initiatives aimed at                 AC-12      Session Termination
strengthening access controls. Such initiatives            AC-13      Supervision and Review –
include a corporate effort to secure sensitive                        Access Control
information stored on the FDIC’s internal
                                                           AC-14      Permitted Actions w/o
network shared drives and a project to                                Identification and Authentication
reengineer and integrate the FDIC’s access
                                                           AC-15      Automated Marking
control systems and procedures. While these
                                                           AC-16      Automated Labeling
actions were positive, KPMG identified
deficiencies in the following controls:                    AC-17      Remote Access

separation of duties, least privilege, and session         AC-18      Wireless Access Restriction
termination, as described below.                           AC-19      Access Control for Portable and
                                                                      Mobile Devices
With regard to separation of duties, KPMG              AC-20        Use of External Information
noted that as of July 20, 2007, four FDIC                           Systems
employees and eight contractor personnel were          Source: NIST SP 800-53 Rev. 1.
                                                       Legend: 9 Selected security controls for KPMG testing
members of a powerful Windows group called
the Windows Domain Admins group. Limiting membership in the Windows Domain Admins group
based on business need is critical because the group allows its members to grant themselves access to
Windows applications and record transactions and to delete application audit logs. Microsoft’s
publication entitled, Best Practices for Delegating Active Directory Administration, recommends that
organizations assign only two or three system administrators to the Windows Domain Admins group.
The FDIC can promote improved separation of duties in the Windows GSS by evaluating the feasibility
of reducing the number of system administrators in the Windows Domain Admins group and by
delegating specific administrative activities to less powerful administrative groups, where possible. In
this manner, the FDIC can mitigate the risk that system administrators can alter and delete security logs
and limit system administrators’ ability to alter application data. The FDIC should also evaluate other


42
     Such policies and procedures include, but are not limited to, Circulars 1360.15, Access Control for Automated
     Information Systems; and 1370.1, Periodic Review of Mainframe Resource Access; the FDIC’s Access Control
     Procedures and Guidelines; and Information Security Manager’s (ISM) Guide.

                                                                                                              Page 32
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

Windows administrative groups to ensure that appropriate separation of duties exists. Such an effort
could be integrated into the FDIC’s Identity and Access Management project.

The security principle of least privilege refers to the practice of restricting user access to only those IT
resources, including data, needed to perform official duties. The FDIC did not always restrict access to
sensitive information, including PII, on the FDIC’s internal network to users with a business need to
access the information. As reported in the OIG’s Audit Report No. AUD-07-010, Division of Resolutions
and Receiverships Protection of Electronic Records, access to sensitive resolution and receivership
information, including PII, stored on the FDIC’s internal network was not adequately protected. FDIC
security officials took prompt action to restrict access to the sensitive information identified during the
OIG audit; however, during our FISMA evaluation work, KPMG identified additional instances in which
sensitive data was stored on internal network shared drives without adequate access restrictions. Further,
KPMG tested a non-statistical sample of 67 Windows servers, deemed mission-critical by DIT, and
identified eight servers that granted all users full control of 14 network shared drives. One of the 14
network shared drives contained the security event logs for all Windows Servers. Any user on the
internal network could read, modify, or delete these critical security logs. This deficiency limited the
FDIC’s assurance regarding the integrity of the IT security logs. At the close of our evaluation, the FDIC
was working to address these issues as part of a broader Corporate initiative.

With regard to security control AC-12 Session Termination, the FDIC did not always automatically
terminate remote sessions after 30 minutes of inactivity. As stated in OMB memorandum M-06-16,
Protection of Sensitive Agency Information, remote access sessions should terminate after a period of user
inactivity. Time-out functionality testing of the FDIC’s four remote access solutions43 showed several
situations where the remote session does not terminate after 30 minutes of inactivity. As a compensating
control, DIT has instituted a 15-minute password-protected screensaver on all agency laptops. However,
this compensating control does not apply when users remotely access the FDIC network from a non-FDIC
(e.g., home) computer.

KPMG identified other access control deficiencies related to Windows server security; however, because
these deficiencies were less significant, KPMG communicated them separately to the CIO.




43
     The four remote access solutions are Ascend Dial-in, RCN, FastAccess, and WebVPN.

                                                                                                     Page 33
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

Audit and Accountability (AU)
Rating: Warrants Management Attention
                                                         Table 18: Audit and Accountability
Audit and Accountability involves generating             AU-1      Audit and Accountability Policy and
audit records at a sufficient level of detail to                   Procedures
establish the events that took place, sources of the     AU-2      Auditable Events
events, and outcomes of the events. Audit and            AU-3      Contents of Audit Records
Accountability also involves consideration of            AU-4      Audit Storage Capacity
audit trail storage, processing, monitoring,
                                                         AU-5      Response to Audit Processing
reporting, protection, and retention. Audit                        Failures
records, together with appropriate tools and
                                                         AU-6      Audit Monitoring, Analysis, and
procedures, promote key security-related
                                                                   Reporting
objectives, such as detecting security violations,
                                                         AU-7      Audit Retention and Report
individual accountability, and reconstructing
                                                                   Generation
auditable events. To be effective, agencies
                                                         AU-8      Time Stamps
should configure their software to collect and
maintain audit trails that are sufficient to track       AU-9      Protection of Audit Information
security-related events.                                 AU-10     Non-repudiation
                                                         AU-11     Audit Record Retention
The FDIC has established policy and procedures       Source: NIST SP 800-53 Rev. 1.
                                                     Legend: 9 Selected security controls for KPMG testing
to incorporate audit and accountability controls
within its information systems. Regarding the control AU-6, Audit Monitoring, Analysis, and Reporting,
the FDIC’s ISMs review and report on access violations for the Windows Servers GSS. Additionally, the
FDIC’s Computer Security Incident Response Team (CSIRT) monitors the Windows security audit log, a
host-based IDS solution, and changes to group membership for selected Windows administrator groups.
KPMG’s testing verified that a central tracking system tracks the addition and deletion of users within
selected administrator groups and that CSIRT initiates appropriate action when warranted.

While these controls are positive, opportunities for improvement remain. Also, in regard to security
control AU-6, KPMG observed that DIT did not regularly review or analyze application audit logs within
the Windows Servers GSS unless instructed by the system owner. To address this and previously noted
deficiencies,44 the FDIC established a one-year project plan to improve its audit logging and monitoring
of FDIC applications. Further, the FDIC developed a draft strategy document to achieve the following
objectives:

       o   establish an enterprise-wide program for audit logging and monitoring,
       o   develop requirements for the monitoring program,
       o   standardize the approach for implementing the monitoring function, and
       o   establish roles and responsibilities for DIT and system owners.

Lastly, DIT drafted policy for logging and monitoring of audit records. While positive steps have been
taken, KPMG observed that formal, documented procedures to facilitate the implementation of the audit
and accountability controls were not implemented for application and system audit logs. Additionally, as
mentioned within the Access Control family, DIT did not provide sufficient protection of audit records
from unauthorized access, modification, and deletion.


44
     FDIC OIG Audit Report No. 06-025, Controls for Monitoring Access to Sensitive Information Processed by FDIC
     Applications, dated September 29, 2006.

                                                                                                         Page 34
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007

System and Communications Protection (SC)
Rating: Not Evaluated

System and communication protection addresses a number of key security control objectives, including
ensuring that system functionality is appropriately segregated; communications are monitored, controlled,
and protected; and cryptographic operations are adequate.

The FDIC has taken a number of steps toward ensuring that all communications paths provide
confidentiality, integrity, and availability. Specifically, DIT has provided a means for encrypting all
e-mail communication across the network, and DIT has successfully tested and begun deploying laptops
with encrypted hard drives.

KPMG did not perform specific audit procedures related to system and communications protection
because the majority of controls in this family pertain to GSSs not covered under our current-year
evaluation. Such GSSs include the Public Key Infrastructure and Data Communication Infrastructure
systems. The OIG may evaluate system and communications protection security controls in future
FISMA evaluations.




                                                                                                  Page 35
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007                Appendix I


APPENDIX I – OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the FISMA evaluation was to evaluate the effectiveness of the FDIC’s information
security program and practices, including the FDIC’s compliance with FISMA and related information
security policies, procedures, standards, and guidelines. The scope of the FISMA evaluation included the
Windows Servers, Remote Access, and Personal Systems GSSs. KPMG limited the scope of the FISMA
evaluation within the Remote Access and Personal Systems GSS to the Windows 2000/2003 server
components and the Windows XP desktop to assess the FDIC’s implementation of provisions in OMB
Memorandum M-06-16, Protection of Sensitive Agency Information. Other hardware and software
components within the Remote Access and Personal Systems GSS were not tested. The scope of the
FISMA evaluation also included reviewing the FDIC’s common security controls such as Awareness and
Training, Incident Response, Contingency Planning, and Personnel Security. Finally, KPMG reviewed
the corrective actions taken to address issues identified during the FY 2006 FISMA evaluation.

To accomplish the evaluation’s objective, KPMG reviewed prior-year audit reports, including GAO’s
report on the FDIC’s information security,45 the OIG’s FY 2005 and FY 2006 FISMA evaluations,46 and
various FDIC OIG reports on information security to identify deficiencies and potential risk areas. In
addition, KPMG conducted interviews with appropriate FDIC personnel to obtain an understanding of
each area within the scope of the evaluation, updates in the control areas covered in prior-year reviews,
and the status of any corrective actions. Further, KPMG reviewed FDIC documentation applicable to
information security, including FDIC directives and DIT internal policies.

The FISMA evaluation did not assess controls at depository institutions insured or regulated by the FDIC
that routinely provide financial information to the Corporation. KPMG performed its FISMA evaluation
during the period April through August 2007 at the FDIC's Headquarters offices and primary computer
facility in Arlington, Virginia, and its disaster recovery site. Throughout the FISMA evaluation, KPMG
met with FDIC management to discuss preliminary conclusions.

The FDIC OIG contracted with KPMG to evaluate the FDIC’s compliance with FISMA requirements and
report on the FDIC’s IT controls over its information security program. KPMG conducted this
performance audit in accordance with Generally Accepted Government Auditing Standards issued by the
Comptroller General of the United States. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. This performance audit did not constitute an
audit of financial statements in accordance with generally accepted government auditing standards. We
were not engaged to and did not express an opinion on the FDIC’s internal controls over financial
reporting or over financial management systems (for purposes of OMB’s Circular No. A-127, Financial
Management Systems, July 23, 1993, as revised). We caution that projecting our evaluation to future
periods is subject to the risk that controls may become inadequate because of changes in conditions or
because compliance with controls may deteriorate.



45
   Information Security: Federal Deposit Insurance Corporation Needs to Sustain Progress Improving Its Program,
   GAO-07-351, May 18, 2007; see http://www.gao.gov/new.items/d07351.pdf.
46
   FDIC OIG Audit Report No. 06-022, Independent Evaluation of the FDIC’s Information Security Program–
   2006, dated September 28, 2006 and FDIC OIG Audit Report No. 05-040, Independent Evaluation of the FDIC’s
   Information Security Program– 2005, dated September 30, 2005.

                                                                                                        Page 36
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007                      Appendix I

Computer-based Data, Performance Measures, and Fraud and Illegal Acts

We performed appropriate procedures to assure ourselves that computer-based data were valid and
reliable when those data were significant to our evaluation findings and conclusions. Such procedures
included verifying selected automated data to source documentation and corroborating automated data
through interviews with appropriate FDIC personnel. Finally, we did not develop specific audit
procedures to detect fraud and illegal acts because we did not consider fraud and illegal acts to be material
to the evaluation objective. However, throughout our evaluation, we were sensitive to the potential for
fraud and illegal acts, and none came to our attention.

Internal Control

An explanation of the terms internal control, reasonable assurance, and adequate security is important to
ensure a proper understanding of our approach and conclusions. OMB Circular No. A-123
(OMB A-123), Management’s Responsibility for Internal Control,47 states:

         Internal Control—organization, policies, and procedures—are tools to help program and
         financial managers achieve results and safeguard the integrity of their programs.

Additionally, OMB A-123 states that internal control must provide reasonable assurance as follows:

         Internal control is an integral component of an organization’s management that provides
         reasonable assurance that the following objectives are being achieved: effectiveness and
         efficiency of operations, reliability of financial reporting, and compliance with applicable
         laws and regulations.

OMB A-130, Appendix III,48 defines adequate security as “security commensurate with the risk and
magnitude of harm resulting from the loss, misuse, or modification of or unauthorized access to
information.” This includes assuring that agency systems and applications provide appropriate
confidentiality, integrity, and availability using cost-effective, risk-based management, personnel,
operational, and technical controls. The concept of adequate security is consistent with FISMA, which
directs agency heads to provide information security protections commensurate with the risk and
magnitude of harm resulting from the unauthorized access to, use, disclosure, disruption, modification, or
destruction of information and information systems.



47
   On December 21, 2004, OMB revised the circular, which became effective in FY 2006, to strengthen
   requirements for conducting management’s assessment of internal control over financial reporting and to
   emphasize the need for agencies to integrate and coordinate internal control assessments with other
   internal-control-related activities. The circular implements the Federal Managers’ Financial Integrity Act
   (FMFIA). This Act is applicable to the FDIC because of provisions in the Chief Financial Officers Act of 1990
   regarding annual reporting by government corporations on their internal accounting and administrative control
   systems. The FDIC has determined that as long as it develops internal controls that are consistent with the goals
   of FMFIA, the FDIC will have met its legal obligations under the circular.
48
   OMB A-130, Appendix III, establishes minimum controls for federal automated information security programs.
   The FDIC has determined that portions of the circular apply to the FDIC, while other portions do not apply. The
   FDIC has also determined that OMB A-130, Appendix III, requires the FDIC to implement and maintain an
   information security program consistent with government-wide policies, standards, and procedures issued by
   OMB and the Department of Commerce.

                                                                                                              Page 37
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007                              Appendix I

Government oversight agencies, such as GAO and OMB, and recognized standards-setting organizations
such as NIST have identified fundamental management principles and controls needed to implement an
effective information security program.49 The controls were defined with the publication of FIPS PUB
200 and NIST SP 800-53 Rev. 1, and an assessment methodology was outlined in a draft assessment
guide in SP 800-53A. SP 800-53 Rev. 1 defines a minimum set of security controls for the non-national
security systems of all federal agencies. These security controls were selected based on the potential
impact that could occur to the agency should there be a loss of confidentiality, integrity, or availability of
the information or information system. The publication defines 17 management, operational, and
technical security control families that are integral to securing any federal information system.

In addition to the SP 800-53 Rev. 1 controls for securing systems, SP 800-100 describes other controls for
agency-wide management of a security program. Based on our analysis of SP 800-100 and the FDIC’s
business and IT environment, we identified two additional security program control families, Information
Security Governance/Performance Measures and Enterprise Architecture for testing in 2007. Table 19
lists the security control classes and related security control families.

The FISMA evaluation framework
                                         Table 19: Security Control Classes and Families
consists of assessing the program              Security                            Security Control Family
control class on an agency-wide basis       Control Class
and assessing management,                  Program               Information Security Governance/Performance
operational, and technical control                               Measures
classes on a sample of systems. The                              Enterprise Architecture
assessment of control families                                   Capital Planning*
leverages the results of testing of a      Management            Risk Assessment
selection of the control objectives that                         Planning
make up the control family. We                                   System and Services Acquisition*
selected systems, control families, and                          Certification, Accreditation, and Security Assessments
individual controls for testing based on   Operational           Personnel Security
how important the system is to the
                                                                 Physical and Environmental Protection
FDIC, the control family is to the
                                                                 Contingency Planning
system, and the control is to the
                                                                 Configuration Management
control family. We considered risk,
                                                                 Maintenance
costs, results of internal and external
                                                                 System and Information Integrity
reviews, government-wide and FDIC
                                                                 Media Protection
initiatives and goals, the maturity of
                                                                 Incident Response
the security program, and other factors
in selecting our samples. For FY                                 Awareness and Training

2007, the evaluated information            Technical             Identification and Authentication

systems included the Windows                                     Access Control
Servers and Personal Systems GSS.                                Audit and Accountability
The Personal Systems GSS includes                                System    and Communications Protection*
                                         Source: KPMG analysis of NIST guidance.
the FDIC’s Windows XP desktop, and       *This control family was not included in the FY2007 FISMA evaluations of the FDIC’s
the Windows Servers GSS includes                information security program.

Windows NT/2000/2003 server operating systems.



49
     GAO Executive Guide, Information Security Management: Learning From Leading Organizations; and OMB
     A-130, Appendix III; NIST SP 800-14; SP 800-12; and SP 800-53.

                                                                                                                       Page 38
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007             Appendix I

Laws and Regulations

The references listed below represent the laws and regulations that were considered in the performance of
our audit. Some of the references are statutes and regulatory sources, whose provisions may or may not
be legally binding on the FDIC; see individual references for further information. Statutory and
regulatory sources that are not binding on the FDIC can provide statements of prudent business practices.
The Internet sites and the various references below are subject to change.

Federal Statutes

Federal Information Security Management Act (FISMA) of 2002 (title III, E-Government Act of
2002), Pub. L. No. 107-347, dated December 17, 2002.
http://csrc.nist.gov/policies/FISMA-final.pdf

This Act requires federal agencies, including the FDIC, to develop, document, and implement an agency-
wide information security program that provides security for the information and systems that support the
operations and assets of the agency, including those provided or managed by another agency, contractor,
or other source. FISMA directs agencies to have an annual independent evaluation performed of their
information security program and practices and to report the results of the evaluation to OMB.

Federal Managers’ Financial Integrity Act of 1982, Pub. L. No. 97-255, dated September 8, 1982.
http://www.whitehouse.gov/omb/financial/fmfia1982.html

The FDIC has determined that portions of the FMFIA are applicable to the FDIC by reference in the
Chief Financial Officers Act. In general, the goals of FMFIA are that agency obligations and costs
comply with applicable law; assets are guarded against waste and loss; and revenue and expenditures are
properly accounted for, so that reliable financial statements can be prepared.

Government Performance and Results Act of 1993, Pub. L. No. 103-62, dated August 3, 1993.
http://www.sc.doe.gov/bes/archives/plans/GPRA_PL103-62_03AUG93.pdf

The Act requires most federal agencies, including the FDIC, to develop a strategic plan that broadly
defines the agency's mission and vision, an annual performance plan that translates the vision and goals of
the strategic plan into measurable objectives, and an annual performance report that compares actual
results against planned goals.

The Chief Financial Officers (CFO) Act of 1990, Pub. L. No. 101-576, dated November 15, 1990.
http://www.acq.osd.mil/me/pdfs/CFOA.pdf

This Act requires government corporations, such as the FDIC, to prepare annual management reports
containing statements regarding the corporation’s internal control systems, consistent with FMFIA.

The Privacy Act of 1974, Pub. L. 93-579, dated Dec. 31, 1974.
http://www.usdoj.gov/oip/privstat.htm

The Act, which is applicable to the FDIC, requires agencies to have appropriate administrative, technical,
and physical safeguards over the security and confidentiality of agency records.



                                                                                                    Page 39
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007             Appendix I

Regulation and Presidential Directive

5 Code of Federal Regulations Part 930, Subpart C, Information Security Responsibilities for
Employees Who Manage or Use Federal Information Systems, dated June 14, 2004.
http://csrc.nist.gov/policies/OPM-June2004-updated-sectrainaware.html

These regulations require agencies, including the FDIC, to develop plans for security awareness and
training with respect to federal information systems, including role-specific training.

Homeland Security Presidential Directive–12, Policy for a Common Identification Standard for
Federal Employees and Contractors, dated August 27, 2004.
http://www.whitehouse.gov/news/releases/2004/08/20040827-8.html

This presidential directive requires agencies to develop and implement a mandatory, government-wide
standard for secure and reliable forms of identification. According to OMB guidance for implementing
HSPD-12, government corporations are encouraged to comply with the directive. The FDIC is
voluntarily complying with this directive.

OMB Circulars

OMB Circular No. A-123, Management Responsibility for Internal Control, dated December 21,
2004.
http://www.whitehouse.gov/omb/circulars/a123/a123_rev.pdf

This circular, which implements FMFIA, sets forth the requirements for agency evaluation of and
reporting on internal controls as well as reporting on financial management systems. The FDIC has
determined that this circular is applicable to the FDIC; specifically, as long as the FDIC’s internal
controls are consistent with the goals of the FMFIA, the FDIC will have met its obligations under this
circular.

OMB Circular No. A-127, Financial Management Systems, dated July 23, 1993, as revised.
http://www.whitehouse.gov/omb/circulars/a127/a127.html

This circular prescribes policies for agencies to follow in developing, evaluating and reporting on their
financial management systems. The FDIC has determined that to the extent that the Circular articulates
FMFIA’s standards, the FDIC should adhere to those standards.

OMB Circular No. A-130, Management of Federal Information Resources, Appendix III, Security of
Federal Automated Information Resources, dated November 28, 2000.
http://www.whitehouse.gov/omb/circulars/a130/a130trans4.pdf

This appendix establishes a minimum set of controls to be included in federal information security
programs. Most of its provisions are applicable to the FDIC.

OMB Security-Related Memoranda
The following documents can be found at http://www.whitehouse.gov/omb/memoranda.




                                                                                                     Page 40
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007           Appendix I

M-03-22, OMB Guidance for Implementing the Privacy Provisions of the E-Government Act of 2002,
dated September 26, 2003.

This memorandum implements section 208 of the E-Government Act, which applies to the FDIC.
Accordingly, it addresses requirements for agency privacy impact analyses and website disclosures.

M-05-24, Implementation of Homeland Security Presidential Directive (HSPD) 12—Policy for a
Common Identification Standard for Federal Employees and Contractors, dated August 5, 2005.

This memorandum provides implementing instructions for HSPD-12. According to the memorandum,
government corporations are encouraged to comply with HSPD-12.

M-06-15, Safeguarding Personally Identifiable Information, dated May 22, 2006.

This memorandum describes agency responsibility for safeguarding PII and requires reviews of related
policies and procedures. The FDIC’s intent is to comply with this memorandum or take it under
consideration.

M-06-16, Protection of Sensitive Agency Information, dated June 23, 2006.

This memorandum describes protection for agency remote or mobile systems and the need for logging
certain data extracts. The FDIC’s intent is to comply with this memorandum or take it under
consideration.

M-06-19, Reporting Incidents Involving Personally Identifiable Information and Incorporating the
Cost for Security in Agency Information Technology Investments, dated July 12, 2006.

This memorandum requires agencies to report computer incidents to a central federal incident-reporting
center. The FDIC’s intent is to comply with this memorandum or take it under consideration.

M-07-11, Implementation of Commonly Accepted Security Configurations for Windows Operating
Systems, dated March 22, 2007.

Agencies that upgrade their Windows operating systems are to adopt certain interagency security
configurations. The FDIC determined that while OMB has power to require that the FDIC develop
policies and provide security protections, OMB cannot compel the FDIC to take specific actions of
OMB’s choosing.

M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable Information,
dated May 22, 2007.

Agencies are required to develop a breach (unauthorized access) notification policy to implement other
controls to protect PII. The FDIC is voluntarily complying with this memorandum.

M-07-19, FY 2007 Reporting Instructions for the Federal Information Security Management Act and
Agency Privacy Management, dated July 25, 2007.

The FDIC’s practice is to comply with OMB’s FISMA instructions.


                                                                                                    Page 41
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007             Appendix I

Selected NIST Federal Information Processing Standards (FIPS)

NIST FIPS PUB 199, Standards for Security Categorization of Federal Information and Information
Systems, February 2004.
http://csrc.nist.gov/publications/fips/fips199/FIPS-PUB-199-final.pdf

This publication contains standards for security characterizations of federal information and information
systems, as required by FISMA. The publication seeks to promote effective management and oversight
of information security programs. Because the FDIC is not an executive agency for purposes of the
publication, this publication is not legally applicable to the FDIC, but the FDIC follows its principles.

NIST FIPS PUB 200, Minimum Security Requirements for Federal Information and Information
Systems, dated March 2006.
http://csrc.nist.gov/publications/fips/fips200/FIPS-200-final-march.pdf

This publication specifies minimum security requirements for federal information systems in 17 security-
related areas. The FDIC considers these requirements as reasonable best practices that the FDIC should
seek to follow.

NIST FIPS PUB 201, Personal Identity Verification (PIV) of Federal Employees and Contractors,
dated March 2006.
http://csrc.nist.gov/publications/fips/fips201-1/FIPS-201-1-chng1.pdf

This publication implements HSPD-12. The FDIC is voluntarily complying with FIPS PUB 201.

Selected NIST Special Publications

In general, these NIST SPs are, by their own terms, guidelines (rather than mandatory requirements) for
agencies in implementing their IT operations. The following documents may be found at:
http://csrc.nist.gov/publications/nistpubs/.

SP 800-12, An Introduction to Computer Security: The NIST Handbook
SP 800-18, Rev. 1, Guide for Developing Security Plans for Information Technology Systems
SP 800-30, Risk Management Guide for Information Technology Systems
SP 800-34, Contingency Planning Guide for Information Technology Systems
SP 800-37, Guide for the Security Certification and Accreditation of Federal Information Systems
SP 800-40, Version 2, Procedures for Handling Security Patches
SP 800-46, Version 2 (Draft), User’s Guide to Securing External Devices for Telework and Remote
Access
SP 800-47, Security Guide for Interconnecting Information Technology Systems
SP 800-50, Building an Information Technology Security Awareness and Training Program
SP 800-53 Rev. 1, Recommended Security Controls for Information Systems
SP 800-53A (Draft June 2007), Guide for Assessing the Security Controls in Federal Information
Systems
SP 800-55, Security Metrics Guide for Information Technology Systems
SP 800-60, Guide for Mapping Types of Information and Information Systems to Security Categories
SP 800-61, Computer Security Incident Handling Guide
SP 800-63, Electronic Authentication Guideline
SP 800-64, Security Considerations in the Information System Development Life Cycle


                                                                                                   Page 42
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007      Appendix I

SP 800-65, Integrating Security into the Capital Planning and Investment Control Process
SP 800-68, Guidance for Securing Microsoft Windows XP Systems for IT Professionals: A NIST
Security Configuration Checklist
SP 800-70, Security Configurations Checklists Program for IT Products: Guidance for Checklists
Users and Developers
SP 800-100, Information Security Handbook: A Guide for Managers




                                                                                            Page 43
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007             Appendix II

APPENDIX II – STATUS OF OIG’S FY2006 FISMA KEY STEPS

            Key Steps To Improve Information Security                          Action           Action in
                                                                              Completed         Progress
Certification and Accreditation:
1) Continue to place priority attention on certifying and accrediting the         9
FDIC’s non-major application systems that process sensitive data.
Audit and Accountability:
2) Develop a risk-based, enterprise-wide approach for (a) monitoring
                                                                                                    9
user access privileges in information systems and (b) generating and
reviewing audit logs for the FDIC’s inventory of information systems.
OMB Privacy:
3) Ensure that all sensitive data stored on mobile FDIC computing
                                                                                                    9
devices is encrypted consistent with OMB’s June 23, 2006
memorandum, Protection of Sensitive Agency Information.
Information Security Governance:
4) Complete the FDIC’s information security risk management
program methodology by defining procedures for performing                         9
(a) continuous monitoring of system security controls after accreditation
and (b) contingency planning for systems.
Enterprise Architecture:
5) Define more fully the FDIC’s information security standards, and                                 9
integrate these standards into the Corporation’s EA.
Enterprise Architecture:
6) Enhance the FDIC’s inventory of information systems by:
 (a) identifying systems used or operated by contractors and other
organizations on behalf of the FDIC; (b) including interfaces between              9                 9
each system in the inventory and all other systems and networks,
                                                                              (a) and (c)           (b)
including those not operated by, or under the control of, the FDIC; and
(c) leveraging the EA to centrally manage, track, and report risk-
management-related information, such as system categorization and test
and authorization dates.
System and Information Integrity:
7) Strengthen oversight of contractors with access to sensitive
information and systems by ensuring that (a) contractor IT equipment
connected to the FDIC’s network is routinely scanned for security                 9
vulnerabilities and the results are addressed in a timely manner, and
(b) confidentiality agreements are executed in accordance with FDIC
policy.
Configuration Management:
8) Strengthen change-control procedures related to mainframe system
                                                                                  9
software to ensure that system software programs are formally
documented and that changes are formally controlled and approved.
Capital Planning:                                                           The FDIC did not agree with the
9) Improve the FDIC’s information security cost-management practices               OIG’s key step.
in order to facilitate resource and investment decisions.




                                                                                                    Page 44
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007           Appendix III

APPENDIX III – SUMMARY OF CONTROLS TESTED

The table below lists the security controls selected for testing from NIST SP 800-53 Rev. 1,
Recommended Security Controls for Federal Information Systems, dated December 2006. KPMG
performed testing on a sample of controls identified in the “Controls Tested FY 2007” column. KPMG
selected security controls for testing based on the risk and applicability to the FDIC’s common controls,
Windows Servers GSSs, and remote access environments. KPMG considered the control objective’s
rated requirement (low, moderate, or high), when selecting the security control for testing. In many
instances, a security control either did not apply to the information systems selected for testing or was
applicable only for information with a high FIPS 199 impact rating. None of information systems KPMG
evaluated had a high FIPS 199 impact rating.

                         NIST SP 800-53 Rev. 1 Control                          Controls    Controls
                                                                               Tested FY   Tested FY
                                                                                 2006        2007
         Family            No.                         Name
                                      Management Control Class
    Risk Assessment      RA-1     Risk Assessment Policy and Procedures           9            9
    (RA)
                         RA-2     Security Categorization                         9            9
                         RA-3     Risk Assessment                                 9            9
                         RA-4     Risk Assessment Update                          9            9
                         RA-5     Vulnerability Scanning                          9            9
    Planning (PL)        PL-1     Security Planning Policy and Procedures         9            9
                         PL-2     System Security Plan                                         9
                         PL-3     System Security Plan Update                                  9
                         PL-4     Rules of Behavior                               9
                         PL-5     Privacy Impact Assessment                       9            9
                         PL-6     Security-Related Activity Planning
    System and           SA-1     System and Services Acquisition Policy and      9            9
    Services                      Procedures
    Acquisition (SA)     SA-2     Allocation of Resources
                         SA-3     Life Cycle Support                                           9
                         SA-4     Acquisitions                                                 9
                         SA-5     Information System Documentation                             9
                         SA-6     Software Usage Restrictions                     9            9
                         SA-7     User Installed Software                         9
                         SA-8     Security Engineering Principles
                         SA-9     External Information System Services
                         SA-10    Developer Configuration Management
                         SA-11    Developer Security Testing
    Certification,       CA-1     Certification, Accreditation, and Security      9            9
    Accreditation, and            Assessment Policies and Procedures



                                                                                                   Page 45
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007      Appendix III

                      NIST SP 800-53 Rev. 1 Control                        Controls    Controls
                                                                          Tested FY   Tested FY
                                                                            2006        2007
        Family          No.                         Name
   Security           CA-2     Security Assessments                          9
   Assessments (CA)
                      CA-3     Information System Connections                9
                      CA-4     Security Certification                        9            9
                      CA-5     Plan of Action and Milestones                 9            9
                      CA-6     Security Accreditation                        9            9
                      CA-7     Continuous Monitoring                                      9
                                   Operational Control Class
   Physical and       PE-1     Physical and Environmental Protection         9            9
   Environmental               Policy and Procedures
   Protection (PE)    PE-2     Physical Access Authorizations                9            9
                      PE-3     Physical Access Control                       9            9
                      PE-4     Access Control for Transmission Medium
                      PE-5     Access Control for Display Medium
                      PE-6     Monitoring Physical Access                    9            9
                      PE-7     Visitor Control                               9            9
                      PE-8     Access Records                                9            9
                      PE-9     Power Equipment and Power Cabling             9
                      PE-10    Emergency Shutoff                             9
                      PE-11    Emergency Power                               9
                      PE-12    Emergency Lighting                            9
                      PE-13    Fire Protection                               9
                      PE-14    Temperature and Humidity Controls             9
                      PE-15    Water Damage Protection                       9
                      PE-16    Delivery and Removal
                      PE-17    Alternate Work Site                           9
                      PE-18    Location of Information System
                               Components
                      PE-19    Information Leakage
   Personnel          PS-1     Personnel Security Policy and Procedures      9            9
   Security (PS)
                      PS-2     Position Categorization                       9            9
                      PS-3     Personnel Screening                           9            9
                      PS-4     Personnel Termination                         9            9
                      PS-5     Personnel Transfer                            9            9
                      PS-6     Access Agreements                             9            9
                      PS-7     Third-Party Personnel Security                9            9
                      PS-8     Personnel Sanctions


                                                                                              Page 46
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007      Appendix III

                      NIST SP 800-53 Rev. 1 Control                        Controls    Controls
                                                                          Tested FY   Tested FY
                                                                            2006        2007
         Family         No.                          Name
   Contingency        CP-1     Contingency Planning Policy and               9            9
   Planning (CP)               Procedures
                      CP-2     Contingency Plan                              9            9
                      CP-3     Contingency Training                          9            9
                      CP-4     Contingency Plan Testing and Exercises        9            9
                      CP-5     Contingency Plan Update                       9            9
                      CP-6     Alternate Storage Sites                       9            9
                      CP-7     Alternate Processing Sites                    9            9
                      CP-8     Telecommunications Services                   9            9
                      CP-9     Information System Backup                     9            9
                      CP-10    Information System Recovery and                           9
                               Reconstitution
   Configuration      CM-1     Configuration Management Policy and           9            9
   Management                  Procedures
   (CM)               CM-2     Baseline Configuration                        9            9
                      CM-3     Configuration Change Control                  9            9
                      CM-4     Monitoring Configuration Changes              9
                      CM-5     Access Restrictions for Change                9            9
                      CM-6     Configuration Settings                        9            9
                      CM-7     Least Functionality                           9            9
                      CM-8     Information System Component Inventory                     9
   Maintenance        MA-1     System Maintenance Policy and Procedures      9            9
   (MA)
                      MA-2     Controlled Maintenance                        9            9
                      MA-3     Maintenance Tools
                      MA-4     Remote Maintenance
                      MA-5     Maintenance Personnel
                      MA-6     Timely Maintenance
   System and         SI-1     System and Information Integrity Policy       9            9
   Information                 and Procedures
   Integrity (SI)
                      SI-2     Flaw Remediation                              9            9
                      SI-3     Malicious Code Protection                     9            9
                      SI-4     Information System Monitoring Tools and       9            9
                               Techniques
                      SI-5     Security Alerts and Advisories                9
                      SI-6     Security Functionality Verification
                      SI-7     Software and Information Integrity
                      SI-8     Spam Protection                               9


                                                                                              Page 47
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007            Appendix III

                        NIST SP 800-53 Rev. 1 Control                            Controls    Controls
                                                                                Tested FY   Tested FY
                                                                                  2006        2007
        Family            No.                         Name
                        SI-9     Information Input Restrictions
                        SI-10    Information Accuracy, Completeness,
                                 Validity, and Authenticity
                        SI-11    Error Handling
                        SI-12    Information Output Handling and Retention
   Media Protection     MP-1     Media Protection Policy and Procedures            9            9
   (MP)
                        MP-2     Media Access                                      9
                        MP-3     Media Labeling                                                 9
                        MP-4     Media Storage                                     9            9
                        MP-5     Media Transport                                   9
                        MP-6     Media Sanitization and Disposal                   9
   Incident Response    IR-1     Incident Response Policy and Procedures           9            9
   (IR)
                        IR-2     Incident Response Training                        9
                        IR-3     Incident Response Testing and Exercises
                        IR-4     Incident Handling                                 9            9
                        IR-5     Incident Monitoring                               9
                        IR-6     Incident Reporting                                9            9
                        IR-7     Incident Response Assistance                      9
   Awareness and        AT-1     Security Awareness and Training Policy            9            9
   Training (AT)                 and Procedures
                        AT-2     Security Awareness                                9            9
                        AT-3     Security Training                                 9            9
                        AT-4     Security Training Records                                      9
                        AT-5     Contacts with Security Groups and
                                 Associations
                                      Technical Control Class
   Identification and   IA-1     Identification and Authentication Policy and      9            9
   Authentication                Procedures
   (IA)                 IA-2     User Identification and Authentication            9            9
                        IA-3     Device Identification and Authentication
                        IA-4     Identifier Management                             9            9
                        IA-5     Authenticator Management                          9
                        IA-6     Authenticator Feedback                            9            9
                        IA-7     Cryptographic Module Authentication
   Access Control       AC-1     Access Control Policy and Procedures              9            9
   (AC)
                        AC-2     Account Management                                9            9



                                                                                                    Page 48
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007         Appendix III

                      NIST SP 800-53 Rev. 1 Control                           Controls    Controls
                                                                             Tested FY   Tested FY
                                                                               2006        2007
        Family          No.                       Name
                      AC-3     Access Enforcement                               9            9
                      AC-4     Information Flow Enforcement
                      AC-5     Separation of Duties                                          9
                      AC-6     Least Privilege                                  9            9
                      AC-7     Unsuccessful Login Attempts                      9            9
                      AC-8     System Use Notification                          9            9
                      AC-9     Previous Logon Notification
                      AC-10    Concurrent Session Control
                      AC-11    Session Lock                                     9
                      AC-12    Session Termination                              9            9
                      AC-13    Supervision and Review – Access Control                       9
                      AC-14    Permitted Actions without Identification or      9
                               Authentication
                      AC-15    Automated Marking
                      AC-16    Automated Labeling
                      AC-17    Remote Access                                    9            9
                      AC-18    Wireless Access Restrictions
                      AC-19    Access Control for Portable and Mobile                        9
                               Systems
                      AC-20    Use of External Information System                            9
   Audit and          AU-1     Audit and Accountability Policy and              9            9
   Accountability              Procedures
   (AU)               AU-2     Auditable Events                                 9            9
                      AU-3     Content of Audit Records                         9            9
                      AU-4     Audit Storage Capacity                           9            9
                      AU-5     Response to Audit Processing Failures            9            9
                      AU-6     Audit Monitoring, Analysis, and Reporting        9            9
                      AU-7     Audit Reduction and Report Generation
                      AU-8     Time Stamps                                      9            9
                      AU-9     Protection of Audit Information                  9            9
                      AU-10    Non-repudiation                                               9
                      AU-11    Audit Record Retention                           9
   System and         SC-1     System and Communications Protection             9            9
   Communications              Policy and Procedures
   Protection (SC)    SC-2     Application Partitioning                                      9
                      SC-3     Security Function Isolation



                                                                                                 Page 49
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007    Appendix III

                      NIST SP 800-53 Rev. 1 Control                      Controls    Controls
                                                                        Tested FY   Tested FY
                                                                          2006        2007
        Family          No.                        Name
                      SC-4     Information Remnants
                      SC-5     Denial of Service Protection
                      SC-6     Resource Priority
                      SC-7     Boundary Protection                                      9
                      SC-8     Transmission Integrity
                      SC-9     Transmission Confidentiality                 9           9
                      SC-10    Network Disconnect
                      SC-11    Trusted Path
                      SC-12    Cryptographic Key Establishment and
                               Management

                      SC-13    Use of Cryptography
                      SC-14    Public Access Protections
                      SC-15    Collaborative Computing
                      SC-16    Transmission of Security Parameters
                      SC-17    Public Key Infrastructure Certificates
                      SC-18    Mobile Code                                              9
                      SC-19    Voice Over Internet Protocol
                      SC-20    Secure Name/Address Resolution Service
                               (Authoritative Source)
                      SC-21    Secure Name/Address Resolution Service
                               (Recursive or Caching Resolver)
                      SC-22    Architecture and Provisioning for
                               Name/Address Resolution Service
                      SC-23    Session Authenticity




                                                                                            Page 50
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007                                                                                                                                 Appendix IV

APPENDIX IV – OMB SECURITY QUESTIONS

                                                                               Section C- Inspector General: Questions 1 and 2
Agency Name: Federal Deposit Insurance Corporation (FDIC)                                                                                                                 Submission Date: 9/26/07
                                                                                             Question 1: FISMA System Inventory


1. As required in FISMA, the IG shall evaluate a representative subset of systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an agency.

In the table below, identify the number of agency and contractor information systems, and the number reviewed, by component/bureau and FIPS 199 system impact level (high, moderate, low, or not
categorized). Extend the worksheet onto subsequent pages if necessary to include all Component/Bureaus.

Agency systems shall include information systems used or operated by an agency. Contractor systems shall include information systems used or operated by a contractor of an agency or other organization on behalf of
an agency. The total number of systems shall include both agency systems and contractor systems.

Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency; therefore, self reporting by contractors does not meet the
requirements of law. Self-reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.
                                                  -             Question 2: Certification and Accreditation, Security Control Testing, and Contingency Plan Testing

2. For the Total Number of Systems reviewed by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number and percentage of systems which have: a current
certification and accreditation, security controls tested and reviewed within the past year, and a contingency plan tested in accordance with policy.

                                                                                Question 1                                                                                Question 2
                                                  a.                              b.                            c.                          a.                            b.                               c.
                                            Agency Systems                Contractor Systems             Total Number of            Number of systems           Number of systems for            Number of systems for
                                                                                                       Systems (Agency and            certified and             which security controls         which contingency plans
                                                                                                        Contractor systems)            accredited                have been tested and              have been tested in
                                                                                                                                                               reviewed in the past year         accordance with policy
                                                                                                                      Total
                     FIPS 199 Risk                      Number                         Number          Total         Number          Total        Percent         Total         Percent of        Total          Percent of
Bureau Name          Impact Level        Number        Reviewed          Number       Reviewed        Number        Reviewed        Number        of Total       Number           Total          Number            Total



FDIC                High                     0              0              0                 0           0              0              0            N/A             0              N/A               0              N/A



                    Moderate                16              2              0                 0          16              2              2           100%             2             100%               2             100%



                    Low                      0              0              0                 0           0              0              0            N/A             0              N/A               0              N/A



                    Not Categorized          0              0              0                 0           0              0              0            0%              0              0%                0              0%



                    Total                   16              2              0                 0          16              2              2           100%             2             100%               2             100%



                                                                                                                                                                                                                   Page 51
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007                                                                                                                         Appendix IV
                                                                              Section C- Inspector General: Questions 3
Agency Name: Federal Deposit Insurance Corporation (FDIC)                                                                                                           Submission Date: 9/26/07
                                                Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory

      3.a.
                  The agency performs oversight and evaluation to ensure information systems
                  used or operated by a contractor of the agency or other organization on behalf of
                  the agency meet the requirements of FISMA, OMB policy and NIST guidelines,
                  national security policy, and agency policy.

                  Agencies are responsible for ensuring the security of information systems used by a
                  contractor of their agency or other organization on behalf of their agency; therefore, self
                  reporting by contractors does not meet the requirements of law. Self-reporting by
                  another Federal agency, for example, a Federal service provider, may be sufficient.              - Frequently, for example, approximately 71-80% of the time
                  Agencies and service providers have a shared responsibility for FISMA compliance.

                  Response Categories:
                       - Rarely, for example, approximately 0-50% of the time
                       - Sometimes, for example, approximately 51-70% of the time
                       - Frequently, for example, approximately 71-80% of the time
                       - Mostly, for example, approximately 81-95% of the time
                       - Almost Always, for example, approximately 96-100% of the time



     3.b.         The agency has developed an inventory of major information systems (including
                  major national security systems) operated by or under the control of such agency,
                  including an identification of the interfaces between each such system and all
                  other systems or networks, including those not operated by or under the control of
                  the agency.
                                                                                                                   - The inventory is approximately 71-80% complete
                  Response Categories:
                       - The inventory is approximately 0-50% complete
                       - The inventory is approximately 51-70% complete
                       - The inventory is approximately 71-80% complete
                       - The inventory is approximately 81-95% complete
                       - The inventory is approximately 96-100% complete

                  Comments: Based on KPMG’s review of the system inventory, the number of system interfaces could not be verified because the system inventory does not identify system interfaces between
                  each system and all other systems or networks, including those not operated by, or under, the control of the agency. The FDIC does include this information on an Application Security Assessment
                  (ASA). However, KPMG noted that ASAs containing this interfacing information have not been completed for all applications.
                  The IG generally agrees with the CIO on the number of agency-owned systems.
      3.c.                                                                                                                                                     Yes
                  Yes or No.
                  The IG generally agrees with the CIO on the number of information systems used
     3.d.         or operated by a contractor of the agency or other organization on behalf of the                                                             Yes
                  agency. Yes or No.
      3.e.        The agency inventory is maintained and updated at least annually. Yes or No.                                                                Yes




                                                                                                                                                                                                           Page 52
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007                                                                                                       Appendix IV
             If the Agency IG does not evaluate the Agency's inventory as 96-100% complete, please identify the known missing systems by Component/Bureau, the Unique Project Identifier (UPI)
             associated with the system as presented in your FY2008 Exhibit 53 (if known), and indicate if the system is an agency or contractor system.


                                                                                                                                 Exhibit 53 Unique Project           Agency or
                                      Component/Bureau                                     System Name
                                                                                                                                      Identifier (UPI)           Contractor system?
    3.f.
                      Division of Administration (DOA)                    PEGASYS                                                     Not Applicable                   Agency


                      Number of known systems missing from
                                                                            1
                      inventory:




                                                                                                                                                                                       Page 53
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007                                                                                                                            Appendix IV

                                                                                Section C- Inspector General: Question 4
Agency Name: Federal Deposit Insurance Corporation (FDIC)                                                                                                              Submission Date: 9/26/07
                                                          Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process
Assess whether the agency has developed, implemented, and is managing an agency-wide plan of action and milestones (POA&M) process. Evaluate the degree to which each statement reflects the
status in your agency by choosing from the responses provided. If appropriate or necessary, include comments in the area provided.

For each statement in items 4.a. through 4.f., select the response category that best reflects the agency's status.

Response Categories:
 - Rarely- for example, approximately 0-50% of the time
 - Sometimes- for example, approximately 51-70% of the time
 - Frequently- for example, approximately 71-80% of the time
 - Mostly- for example, approximately 81-95% of the time
 - Almost Always- for example, approximately 96-100% of the time


                              The POA&M is an agency-wide process, incorporating all known IT security weaknesses
           4.a.               associated with information systems used or operated by the agency or by a contractor of the            - Frequently- for example, approximately 71-80% of the time
                              agency or other organization on behalf of the agency.



                              When an IT security weakness is identified, program officials (including CIOs, if they own or operate
           4.b.                                                                                                                       - Mostly- for example, approximately 81-95% of the time
                              a system) develop, implement, and manage POA&Ms for their system(s).



                              Program officials and contractors report their progress on security weakness remediation to the CIO
           4.c.                                                                                                                       - Almost Always, for example, approximately 96-100% of the time
                              on a regular basis (at least quarterly).



           4.d.               Agency CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.     - Almost Always, for example, approximately 96-100% of the time



           4.e.               IG findings are incorporated into the POA&M process.                                                    - Frequently- for example, approximately 71-80% of the time



                              POA&M process prioritizes IT security weaknesses to help ensure significant IT security
           4.f.                                                                                                                       - Almost Always, for example, approximately 96-100% of the time
                              weaknesses are addressed in a timely manner and receive appropriate resources.


POA&M process comments: Although the FDIC has developed policy and guidelines for preparing and managing system-level POA&Ms, the FDIC needed to modify its POA&M procedures to ensure that system-level
POA&Ms either reflect consolidation of, or are accompanied by, other FDIC plans to correct all relevant IT security weaknesses, including weaknesses identified in GAO and FDIC OIG reports and any other IT security
review. C&A guidelines provide that ST&E weaknesses are included in system-level POA&Ms. In addition, the FDIC tracks system-level security weaknesses in a number of standalone spreadsheets and databases
based on how the weakness is identified. For example, system-level security weaknesses identified by the GAO, OIG, or internal FDIC reviews are managed in the FDIC’s IRIS; where as system-level security
weaknesses identified by ST&Es are managed in system-level POA&Ms. DIT can better integrate its management of security weaknesses by developing system-level POA&Ms that include all relevant security
weaknesses, either through consolidation of other documents used to identify and track weaknesses or as a POA&M attachment. At the close of KPMG’s fieldwork, DIT began including all IT security weaknesses on
system-level POA&Ms.




                                                                                                                                                                                                              Page 54
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007                                                                                                                                  Appendix IV
                                                                                  Section C- Inspector General: Questions 5
Agency Name: Federal Deposit Insurance Corporation (FDIC)                                                                                                                  Submission Date: 9/26/07
                                                                       Question 5: IG Assessment of the Certification and Accreditation Process

Provide a qualitative assessment of the agency's certification and accreditation process, including adherence to existing policy, guidance, and standards. Provide narrative comments as appropriate.

Agencies shall follow NIST Special Publication 800-37, "Guide for the Security Certification and Accreditation of Federal Information Systems" (May 2004) for certification and accreditation work initiated after May 2004.
This includes use of the FIPS 199, "Standards for Security Categorization of Federal Information and Information Systems" (February 2004) to determine a system impact level, as well as associated NIST document
used as guidance for completing risk assessments and security plans.


                               The IG rates the overall quality of the Agency's certification and accreditation process as:

                               Response Categories:
                                    - Excellent
           5.a.                                                                                                                         - Satisfactory
                                    - Good
                                    - Satisfactory
                                    - Poor
                                    - Failing

                                                                                                                                       Security plan
                                                                                                                                                                                                             X


                                                                                                                                       System impact level                                                   X


                                                                                                                                       System test and evaluation                                            X


                                                                                                                                       Security control testing                                              X
                               The IG's quality rating included or considered the following aspects of the C&A process: (check all
           5.b.
                               that apply)
                                                                                                                                       Incident handling                                                     X


                                                                                                                                       Security awareness training                                           X


                                                                                                                                       Configurations/patching                                               X


                                                                                                                                       Other:


C&A process comments: The FDIC established a C&A program consisting of policies, procedures, and guidelines; key personnel, such as a Certification Agent and Authorizing Official; an independent ST&E process;
and POA&Ms for tracking and remediating security weaknesses. The FDIC has fully certified and accredited all of its major information systems, including GSSs and major applications, consistent with NIST security
standards and guidelines. In addition, the FDIC revised its information security risk management methodology in June 2006 to achieve cost efficiencies in its C&A processes by consolidating its minor information
systems that process sensitive data through an aggregation process. While these accomplishments are significant, KPMG and OIG testing of security controls during FY 2007 noted control weaknesses in GSSs, that
recently completed the C&A process. More-thorough testing during the ST&E phase or through enhanced Continuous Monitoring activities of these GSSs likely would have identified these control deficiencies. Thus,
KPMG has rated the FDIC’s C&A processes as “Satisfactory.”




                                                                                                                                                                                                                    Page 55
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007                                                                                                                       Appendix IV
                                                                       Section C- Inspector General: Questions 6 and 7
Agency Name: Federal Deposit Insurance Corporation (FDIC)                                                                                                        Submission Date: 9/26/07
                                                 Question 6: IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA) Process

                          Provide a qualitative assessment of the agency's Privacy Impact Assessment (PIA)
                          process, as discussed in Section D II.4 (SAOP reporting template), including adherence
                          to existing policy, guidance, and standards.

                          Response Categories:
          6.a.                                                                                                            - Satisfactory
                           - Excellent
                           - Good
                           - Satisfactory
                           - Poor
                           - Failing

                          Comments: The FDIC OIG has prepared a report AUD-07-013, entitled, Response to Privacy Program Information Request in OMB’s Fiscal Year 2007 Reporting Instructions for FISMA
                          and Agency Privacy Management, scheduled for issuance on September 26, 2007. Please refer to this public report for additional information regarding the FDIC’s privacy program.

                          Provide a qualitative assessment of the agency's progress to date in implementing the
                          provisions of M-06-15, "Safeguarding Personally Identifiable Information" since the
                          most recent self-review, including the agency's policies and processes, and the
                          administrative, technical, and physical means used to control and protect personally
                          identifiable information (PII).

          6.b.            Response Categories:                                                                            - Satisfactory
                           - Response Categories:
                           - Excellent
                           - Good
                           - Satisfactory
                           - Poor
                           - Failing

                          Comments: The FDIC OIG has prepared a separate report AUD-07-013, titled Response to Privacy Program Information Request in OMB’s Fiscal Year 2007 Reporting Instructions for
                          FISMA and Agency Privacy Management, scheduled for issuance on September 26, 2007. Please refer to this public report for additional information regarding the FDIC’s Privacy
                          Program.
                                                                              Question 7: Configuration Management
          7.a.              Is there an agency wide security configuration policy? Yes or No.                                                                       Yes
                            Comments: None.

                            Approximate the extent to which applicable information systems apply common
                            security configurations established by NIST.

                            Response categories:
          7.b.              - Rarely- for example, approximately 0-50% of the time                                                - Mostly, for example, approximately 81-95% of the time
                             - Sometimes- for example, approximately 51-70% of the time
                             - Frequently- for example, approximately 71-80% of the time
                             - Mostly- for example, approximately 81-95% of the time
                             - Almost Always- for example, approximately 96-100% of the time
                            Comments: As part of the 2007 FISMA Evaluation at the FDIC, KPMG reviewed the FDIC’s Personal Systems GSS, which included Windows XP. KPMG compared the FDIC’s
                            Windows XP security configuration settings to those established by NIST SP 800-68 and noted that 27 of the 133 identified settings were not in compliance. KPMG noted that the FDIC
                            historically follows industry best practices established by NIST or the National Security Agency and then tailors the settings for compatibility with its environment. Based on this
                            observation and the fact that this is the first year that configuration settings are being directly compared to those established by NIST, our response is Mostly, for example,
                            approximately 81-95% of the time.



                                                                                                                                                                                                         Page 56
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007                                                                                                                      Appendix IV



                                                                   Section C- Inspector General: Questions 8, 9, 10 and 11
Agency Name: Federal Deposit Insurance Corporation (FDIC)                                                                                                       Submission Date: 9/26/07
                                                                                         Question 8: Incident Reporting
Indicate whether or not the agency follows documented policies and procedures for reporting incidents internally, to US-CERT, and to law enforcement. If appropriate or necessary, include comments in
the area provided below.

                           The agency follows documented policies and procedures for identifying and reporting
          8.a.                                                                                                                                                       Yes
                           incidents internally. Yes or No.

                           The agency follows documented policies and procedures for external reporting to US-
          8.b.                                                                                                                                                       Yes
                           CERT. Yes or No. (http://www.us-cert.gov)

          8.c.             The agency follows defined procedures for reporting to law enforcement Yes or No.                                                         Yes

                           Comments: As part of the 2007 FISMA Evaluation, KPMG selected a non-statistical sample of 20 incidents and verified that CSIRT followed their documented policies and procedures
                           when handling the incidents.
                                                                                   Question 9: Security Awareness Training

                           Has the agency ensured security awareness training of all employees, including
                           contractors and those employees with significant IT security responsibilities?

                           Response Choices include:
                           - Rarely, or, approximately 0-50% of employees have sufficient training
           9                                                                                                                  - Almost Always, or approximately 96-100% of employees have sufficient training
                           - Sometimes, or approximately 51-70% of employees have sufficient training
                           - Frequently, or approximately 71-80% of employees have sufficient training
                           - Mostly, or approximately 81-95% of employees have sufficient training
                           - Almost Always, or approximately 96-100% of employees have sufficient training


                                                                                     Question 10: Peer-to-Peer File Sharing


                           Does the agency explain policies regarding peer-to-peer file sharing in IT security awareness
           10                                                                                                                                                        Yes
                           training, ethics training, or any other agency-wide training? Yes or No.


                                                                               Question 11: E-Authentication Risk Assessment


           11              The agency has completed system e-authentication risk assessments. Yes or No.                                                             Yes




                                                                                                                                                                                                        Page 57
KPMG’s Independent Evaluation of FDIC Information Security Program – 2007                    Appendix V


APPENDIX V – GLOSSARY OF TERMS
       Term                                                     Definition
Access Control        The ability to ensure that only authorized users can access system resources in authorized
                      ways.
Adequate Security     Security commensurate with the risk and magnitude of the harm resulting from the loss,
                      misuse, or unauthorized access to, or modification of, information.
Audit Trail           A series of records of computer-related events about an operating system, an application, or
                      user activities. An information system may have several audit trails, each devoted to a
                      particular type of activity. The terms audit trail and audit log are used synonymously in this
                      report.
Auditable Event       An event is any action that happens on a computer system. Examples include logging into a
                      system, executing a program, and opening a file.
Biometrics            One of various technologies that utilize behavioral or physiological characteristics to
                      determine or verify identity. For example, a fingerprint scan is a commonly used biometric.
Encryption            In cryptography, it is the mean and method for rendering information unintelligible.
Firmware              A computer program that is embedded in a hardware device. It can also be provided on
                      flash
                      read-only memory or as a binary image file that can be uploaded onto existing hardware by
                      a user.
General Support       An interconnected set of information resources under the same direct management control
System (GSS)          that shares common functionality. It normally includes hardware, software, information,
                      data, applications, communications, and people.
Hotfixes              A single, cumulative package that includes one or more files that are used to address a
                      problem in a product. Hotfixes address a specific customer situation and may not be
                      distributed outside the customer organization.
Intrusion Detection   Software that automates the process of monitoring the events occurring in a computer
System (IDS)          system or network and analyzing them for signs of possible incidents.
Least Privilege       Refers to the practice of restricting a user’s access to only those resources needed to perform
                      official duties.
Log                   A record of the events occurring within an organization’s systems and networks. Logs are
                      composed of entries that contain information related to a specific event that occurred within
                      a system or network.
Major Applications    An application that requires special attention to security due to the risk and magnitude of
                      harm resulting from the loss, misuse, unauthorized access to, or modification of, the
                      information in the application.
National Institute    A non-regulatory federal agency within the Department of Commerce’s Technology
of Standards and      Administration. As part of its responsibilities, NIST develops and publishes technical,
Technology (NIST)     physical, administrative, and management standards and guidelines for the cost-effective
                      security and privacy of sensitive, but unclassified, information in federal computer systems.
Rational Unified      An iterative software development process created by the Rational Software Corporation,
Process (RUP®)        now a division of IBM. The RUP is not a single concrete prescriptive process, but rather an
                      adaptable process framework that the FDIC has customized for its systems development life
                      cycle.
Source Code           A set of programming language instructions that must be translated into machine
                      instructions before the program can run.
Security Test &       An examination and analysis of the security safeguards of a system as they have been
Evaluation (ST&E)     applied in an operational environment to determine the security posture of the system




                                                                                                             Page 58
